<html>
<title> - LOCATING 911 CALLERS IN A WIRELESS WORLD</title>
<body><pre>[Senate Hearing 113-489]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-489
 

                LOCATING 911 CALLERS IN A WIRELESS WORLD

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 16, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and
                             Transportation

                         U.S. GOVERNMENT PRINTING OFFICE

91-524 PDF                       WASHINGTON : 2014
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800;
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
CORY BOOKER, New Jersey
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------

              SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY,
                            AND THE INTERNET

MARK PRYOR, Arkansas, Chairman       ROGER F. WICKER, Mississippi,
BARBARA BOXER, California                Ranking Member
BILL NELSON, Florida                 ROY BLUNT, Missouri
MARIA CANTWELL, Washington           MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire,
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
CORY BOOKER, New Jersey


                            C O N T E N T S

                              ----------
                                                                   Page
Hearing held on January 16, 2014.................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Wicker......................................     2
Statement of Senator Johnson.....................................    26
Statement of Senator Blumenthal..................................    28
Statement of Senator Markey......................................    32
Statement of Senator Ayotte......................................    36

                               Witnesses

Gigi Smith, President, Association of Public-Safety
  Communications Officials (APCO) International..................     4
    Prepared statement...........................................     5
Claude L. Stout, Executive Director, Telecommunications for the
  Deaf and Hard of Hearing, Inc. (TDI)...........................     7
    Prepared statement...........................................     9
Christopher Guttman-McCabe, Executive Vice President, CTIA--The
  Wireless Association...........................................    11
    Prepared statement...........................................    12
Kirk Burroughs, Senior Director of Technology, Qualcomm
  Engineering Services Group, Qualcomm Incorporated..............    14
    Prepared statement...........................................    16
Telford E. Forgety III (``Trey''), Director of Government Affairs
  and Regulatory Counsel, National Emergency Number Association
  (NENA).........................................................    18
    Prepared statement...........................................    19

                                Appendix

Hon. Amy Klobuchar, U.S. Senator from Minnesota, prepared
  statement......................................................    41
Letter dated January 27, 2014 from Fred J. Michanie, President
  and Founder, Direct Technology, Inc. to Senate Subcommittee on
  Communications, Technology, and the Internet...................    41
Response to written questions submitted to Gigi Smith by:
    Hon. Bill Nelson.............................................    42
    Hon. Amy Klobuchar...........................................    44
Response to written questions submitted by Hon. Bill Nelson to
  Claude L. Stout................................................    45
Response to written questions submitted to Christopher Guttman-
  McCabe by:
    Hon. Barbara Boxer...........................................    46
    Hon. Bill Nelson.............................................    46
Response to written questions submitted by Hon. Bill Nelson to
  Kirk Burroughs.................................................    48
Response to written questions submitted to Telford E. Forgety III
  (``Trey'') by:
    Hon. Barbara Boxer...........................................    49
    Hon. Bill Nelson.............................................    50
    Hon. Amy Klobuchar...........................................    54

 
                       LOCATING 911 CALLERS IN A
                             WIRELESS WORLD

                              ----------


                       THURSDAY, JANUARY 16, 2014

                               U.S. Senate,
Subcommittee on Communications, Technology, and the
                                          Internet,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:34 a.m. in
room 253, Russell Senate Office Building, Hon. Mark Pryor,
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. MARK PRYOR,
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. I will call this to order here.
    Thank you all for being here. I want to thank all of our
witnesses for coming and participating in this very important
hearing.
    Today we are going to discuss the importance of locating
persons who call 911, especially in an increasingly wireless
world.
    I want to particularly thank those who are here
representing public safety communications professionals and
first responders. We appreciate your service and appreciate all
you do to keep us all safe.
    There is no question that a call to 911 may be the most
important call that you will ever make, and also there is no
question that when the public does that, they expect that
public safety officials will have the ability to find them as
quickly as possible. But, as it happens, I think most consumers
would be surprised to know that if you are calling from a
wireless phone, the 911 system may not be able to locate
exactly where that person in need is.
    The issue was brought home to me recently when one of the
FCC Commissioners, Jessica Rosenworcel, came to Arkansas. When
she was in Little Rock, she went to the Little Rock 911 center.
And the first thing they talked about when they were there is
that about 86 percent of all the calls that come into that
center are wireless calls. So about 86 percent.
    So if we have a system where wireline phones, when they
call in, they get recognized and they get located virtually
immediately, that means that, you know, here we are only
working a small portion of the time when it comes to wireless,
at least potentially. Nationally, the number is about 70
percent of the calls coming in from wireless phones.
    But, also, as Commissioner Rosenworcel has shown, depending
on literally where you stand in that center, if you are using a
wireless phone, the location accuracy varies widely. Even, at
some point, if you stand in the center, you may be sent to
another call center. I know that doesn't make sense, but that
is just the way it works sometimes in the wireless world.
    I think most consumers would be alarmed if they understood
this, and I think that the problem is especially true for phone
calls made from indoors. And we will talk about that here in a
moment.
    So it is time for an upgrade, and it is time that we
recognize that there are just too many stories affecting too
many individuals that have led all too often to unnecessary
suffering. And we need the ability to fix this.
    So this is not to say, by the way, that our nation's
wireless carriers and equipment manufacturers haven't been
trying. I want to thank them for all that they have done. And
they have been cooperating with the FCC in the CSRIC process,
and I think that is very constructive. I think that all the
efforts that they have done up to this point will serve as key
building blocks to moving this forward. And that is where we
must go; we must go forward on this. We need a more accurate
and more timely and more robust system.
    In September of last year, Senators Klobuchar, Boxer, and
Feinstein and I signed a letter to the FCC asking them to
closely examine wireless 911 call location accuracy issues. And
I appreciate the work that the Commission has already done on
this. They recently had a workshop, and they brought all the
stakeholders in, and they, it is my understanding, spent an
entire day going through this, and that is important.
    But, also, I will say I believe it is time for the FCC to
take concrete steps to make sure that all wireless callers can
be located by 911 centers. And I call on the FCC today to
initiate a proceeding to make that happen.
    At the same time, it is my hope that the Commission will
continue to encourage these ongoing collaborative efforts like
CSRIC and that they will continue to look at all available data
and try to improve all their accuracy today and also going
forward. So I support the FCC taking all the necessary steps to
solve this problem, a public safety need.
    And today we look forward to hearing from our panel of
witnesses. We look forward to hearing your thoughts on the
strengths and weaknesses of the 911 system, how we should move
forward, how it should work, and things that we can do to
improve it. And the stakes are, you know, just too high for us
to do nothing.
    So, again, I want to thank you all for being here.
    And I would like to recognize Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER,
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Chairman Pryor.
    Americans' right to dependable 911 service in times of
emergency is a top priority. Lives absolutely depend on it.
That dependability is challenged as more and more calls are
placed using wireless devices.
    This hearing should serve our members and make a record as
to a detailed status update on the current state of wireless
911 location accuracy, the rules on the books, and the
practices of carriers and public safety entities. This hearing
also provides a forum for determining what still needs to be
done.
    Our goals are straightforward, as the Chairman stated:
ensuring that the ever-increasing wireless calls to 911 are
answered and that we have the best possible emergency
communications infrastructure in place to do so.
    Now, Mr. Chairman, it is important to note that our home
states of Mississippi and Arkansas have a distinct and unique
interest in ensuring wireless callers can be quickly and
accurately located by first responders.
    First, as we have noticed in previous hearings, Mississippi
and Arkansas are leading the way in wireless-only households,
with 42.3 percent of adults in Mississippi and an even larger
44.4 percent of adults in Arkansas making a full conversion and
cutting the cord. That same study found that, by the second
half of 2011, one in three households had only wireless phones.
    Regrettably, I prepared no such data on the state of
Wisconsin for this subcommittee hearing.
    Additionally, Mr. Chairman, you and I are both from states
with vast rural areas, and we do have that in common with
Senator Johnson. Our states are populated and visited by family
farmers, sportsmen, and everyday citizens. Unlike our nation's
big cities, our states have fewer and more remote critical care
facilities that can be hours away from a caller in need.
    Considering these facts, it is critical that when a 911
call is placed, first responders know precisely where the call
is coming from. Of course, like any issue of national
significance, this issue has many complicated and moving parts
to consider.
    I want to welcome and thank our witnesses for testifying
today. Their perspectives on the current state of wireless 911
accuracy in this country are much appreciated.
    And I urge all stakeholders to work in a collaborative
fashion, and I urge industry officials, public safety
professionals, and regulators to work together to make our
nation's emergency communications capabilities as robust,
responsive, flexible, and consumer-accessible as possible.
    Thank you, sir.
    Senator Pryor. Thank you.
    And what I will do now is we will recognize each of our
witnesses. And instead of doing a long introduction, I will
just give an abbreviated introduction of all five of you at one
time, and then we will just go down the row for your opening
statements. And we would ask you to keep your opening
statements to 5 minutes, maybe less, but 5 minutes. And we are
going to have lots of questions for you.
    First we have Ms. Gigi Smith. She is President of APCO
International. Next is Claude Stout, Executive Director,
Telecommunications for the Deaf and Hard of Hearing, Inc. Next
is Christopher Guttman-McCabe, Executive Vice President, CTIA--
The Wireless Association. Next is Kirk Burroughs, Senior
Director of Technology at Qualcomm, Inc. And last, and
certainly not least, we have Trey Forgety. He is the Director
of Governmental Affairs, National Emergency Number Association.
    So, with that, Ms. Smith.

   STATEMENT OF GIGI SMITH, PRESIDENT, ASSOCIATION OF PUBLIC-
      SAFETY COMMUNICATIONS OFFICIALS (APCO) INTERNATIONAL

    Ms. Smith. Good morning, Chairman Pryor, Ranking Member
Wicker, and members of the Subcommittee. My name is Gigi Smith.
I am the President of the Association of Public-Safety
Communications Officials International, or APCO International.
Thank you for inviting me to testify before you today.
    I have been active in public safety communications for over
28 years. I started as a call taker and now serve as the Police
Operations Manager for the Salt Lake Valley Emergency
Communications Center in West Valley City, Utah. My public
safety answering point, or PSAP, is a 911 police, fire, and
emergency medical services dispatch center.
    I welcome this opportunity to discuss APCO with you,
highlight issues that are increasingly important to our
membership base, and offer some thoughts on the importance of
wireless 911 location accuracy.
    APCO is the world's oldest and largest organization of
public safety communications professionals, at over 20,000
members. Effectively, our members field 911 calls and dispatch
critical information to first responders. APCO has served a
leading role in advancing policies to improve public safety
communications, including wireless 911 services.
    In short, the prompt and effective dispatch of emergency
services is dependent upon obtaining the best location
information possible from the caller. If you are indoors and
call 911 from a landline phone, your address is usually quickly
reported to the PSAP. However, 911 calls made with wireless
phones do not afford the same degree of location accuracy.
    At my own PSAP, we have noticed an upward trend in calls
from wireless devices, including from indoors. Further,
consumer expectations of the location capabilities of their
devices do not match our actual experience in the PSAP.
    The predominant location technology for most of these
wireless 911 calls, Assisted GPS, or A-GPS, has been generally
effective outdoors. However, A-GPS relies on having direct line
of sight for GPS signals, which do not penetrate buildings well
in most cases.
    Because we are growing accustomed to fielding wireless
calls, we often lead off by asking, ``911. What is the address
of your emergency?'' If the caller cannot provide his or her
address, then we question the caller in detail. However, this
can be time-consuming, and 911 callers are occasionally
panicked, scared, injured, or otherwise unable to speak or
provide correct information.
    We employ these and other methods along with automatic
location identification technologies deployed by the wireless
carriers, which have been successful in helping PSAPs locate
911 callers.
    Because the best location data may not arrive within the
initial wireless 911 call, call takers will commonly solicit
updated location data, which is known as a ``rebid.'' Rebidding
often affords more accurate Phase II location information,
which provides the latitude and longitude of the caller.
    APCO has implemented training protocols, standards, and
best practices to address rebidding. APCO recommends rebidding
to ensure the most accurate information is available. While
policies on rebidding vary, the phone system at my PSAP
automatically rebids every 15 seconds. Further, call takers can
manually rebid at shorter intervals if necessary.
    From my own experience in the greater Salt Lake Valley
area, we encounter a diverse natural topography with mountains,
canyons, large gullies, and river bottoms, as well as a
bustling downtown complete with subterranean parking,
basements, and high-rise concrete structures. Thus, I know
firsthand the impact on the PSAPs from the growing use of
wireless phones to place 911 calls.
    APCO stands ready to work with the wireless industry
location technology vendors, our partners in the public safety
community, and the FCC to explore new wireless location
accuracy solutions. APCO would also support revised FCC rules
that require improvements in indoor location accuracy over a
reasonable period of time.
    I appreciate that the Subcommittee has taken up this
important topic in a timely manner. Thank you for the
opportunity to address you, and I look forward to answering any
questions you may have.
    [The prepared statement of Ms. Smith follows:]

  Prepared Statement of Gigi Smith, President, Association of Public-
          Safety Communications Officials (APCO) International
    Good morning Chairman Pryor, Ranking Member Wicker, and Members of
the Subcommittee.
    My name is Gigi Smith, and I am the President of the Association of
Public-Safety Communications Officials International, or APCO
International. Thank you for inviting me to testify before you today.
    I have been active in public safety communications for over 28
years. I started as a call taker, and then worked my way through the
ranks of dispatcher, trainer, supervisor, and I now serve as the Police
Operations Manager for the Salt Lake Valley Communications Center in
West Valley City, Utah. My Public Safety Answering Point (PSAP) is a 9-
1-1 police, fire, and medical emergency services dispatch Center.
    I welcome this opportunity to discuss APCO with you, highlight
issues that are increasingly important to our membership base, and
offer some thoughts and observations on the important role of wireless
9-1-1 location accuracy.
    APCO International is the world's oldest and largest organization
of public safety communications professionals, at over 20,000 members.
Our members are mainly state and local government employees who manage
and operate communications systems for law enforcement, fire, EMS and
other public safety agencies.
    Effectively, our members are the individuals that are responsible
for fielding emergency 9-1-1 calls and dispatching critical information
to first responders.
    For many years, APCO has served a leading role in advancing
policies to improve public safety communications, including wireless 9-
1-1 services and related location accuracy issues. In this regard, we
are active participants in the numerous related proceedings and
workshops at the Federal Communications Commission, and appreciate the
work of the agency for its commitment and dedication toward these
important matters. APCO has urged the Commission, wireless carriers,
and location technology vendors that improvements must be made in
wireless location accuracy for 9-1-1 calls, including calls from indoor
locations.
    Our commitment to improving location accuracy extends to our active
participation in the FCC's Communications Security, Reliability and
Interoperability Council, or CSRIC, including its focus on developing
solutions for wireless 9-1-1 indoor location issues. We also seek to
regularly collaborate with our partners in the industry to share
information and pursue ways to improve upon past efforts and address
new challenges.
    Turning to the subject of this hearing, the prompt and effective
dispatch of appropriate emergency services to any reported event is
dependent upon obtaining the best location information possible from
the caller. This essential element of dispatching must occur regardless
of the technology used to access 9-1-1.
    If you are indoors and place a call to 9-1-1 from a landline phone,
your phone number and location, which typically is your street address,
are usually automatically and quickly reported to the PSAP. However, 9-
1-1 calls made with wireless phones do not afford the same degree of
location accuracy. This difference in accuracy between wireline and
wireless calls, coupled with the fact that more and more Americans are
``cutting the cord'' and relying exclusively on wireless devices for
all of their voice communications, means that PSAPs must be
increasingly vigilant to ensure they have the most accurate location
information available.
    At my own PSAP, we've noticed an upward trend in calls originating
from wireless devices, including from inside buildings. Further, there
is a gap between the expectations of consumers and our actual
experience in the PSAP regarding the ability of their devices to
promptly and accurately convey their location during a 9-1-1 call.
Whether this disconnect comes from viewing too many good entertainment
programs, or developing certain assumptions as our mobile devices get
``smarter'' and ``smarter,'' it's critical we educate consumers about
current technological limitations with regard to wireless location
accuracy.
    The predominant location technology for most of these wireless 9-1-
1 calls, ``Assisted GPS'' or ``A-GPS,'' has been generally effective in
outdoor locations. However, A-GPS relies in large part on having direct
line-of-sight for GPS signals, which do not penetrate buildings well in
most cases. Wireless 9-1-1 calls from an indoor location will thus
generally provide significantly less accurate location information than
a call from an outdoor location. Even outdoors, natural and man-made
features, such as ``urban canyons,'' mountainous terrain, and heavy
forestation, can negatively impact location accuracy determined with A-
GPS.
    The key point however is that growing reliance on wireless devices
for making 9-1-1 calls from indoor locations is limiting, and will
continue to limit, the location accuracy for those calls. In this
regard, and before I turn to the location technologies that have been
deployed for wireless 9-1-1 service, I'd like to describe the special
skills and procedures employed by 9-1-1 call-takers to help determine a
wireless callers' location.
    Because we are growing accustomed to the use of wireless location
technology, we often lead off each call by asking, ``9-1-1, what is the
address of your emergency.'' If the caller is not able to provide his
or her address, we then question the caller in detail to provide verbal
information regarding his or her location. For example, we inquire of
any landmarks like billboards or a local store. We also utilize a
program that helps us match landmarks referenced on a call through what
we refer to as a ``commons place'' table within our Computer Aided
Dispatch (CAD) system. When none of this works, we employ our
experience and become even more creative: in one case I recall, we
advised an injured person who was inside a car to continually honk his
horn, which resulted in a 9-1-1 call from a nearby home with a noise
complaint that led first responders to the victim. However,
implementing these methods can be time consuming, and 9-1-1 callers are
occasionally panicked, scared, injured, or otherwise unable to speak or
provide correct information.
    We employ these methods along with the automatic location
identification technologies deployed by the wireless carriers, which
have been successful in helping PSAPs locate 9-1-1 callers. When
provided, accurate ``Phase II'' information, which contains the ``x,
y'' coordinates of the caller within a certain radius that meets or
exceeds FCC requirements, is extremely helpful in those situations.
    When a wireless 9-1-1 call is delivered to the PSAP, it is
initially accompanied by some form of location information. In some
instances, the technology used to locate the wireless 9-1-1 caller may
not have determined his or her specific location by the time the time
the emergency call is delivered to the PSAP. In order to ensure quick
routing of the voice portion of the call, wireless calls are initially
routed based on ``Phase I'' location information, which consists only
of the location of the cell site or base station transmitting the call.
This means that the caller can be anywhere within the radius of that
particular cell site.
    Subsequent and nearly simultaneous to receiving the routing
location, a request (or ``bid'') is made to obtain more accurate, or
Phase II, location information to deliver with the call. This request
utilizes the carrier's location information infrastructure to obtain
the x,y coordinates of the caller when available. This request will
result in delivery of initial Phase II data that may not be the best
location information available, but it is better than Phase I data
only.
    Because the best location data may not arrive with the initial
wireless 9-1-1 call, a common practice for call-takers is to solicit
updated location data from the wireless carrier at some point after
initiation of the call, which is known as a rebid. Rebidding for this
information often affords more accurate, Phase II location information,
which provides the PSAP call-taker with the latitude and longitude of
the wireless caller. The Phase II information provided to the PSAP must
meet FCC accuracy standards, ranging from 50 to 300 meters, depending
on the type of technology used.
    APCO, an American National Standards Institute (ANSI) certified
standards development organization, has implemented training protocols,
standards, and best practices to address the rationale and methods for
rebidding wireless 9-1-1 calls. APCO recommends that PSAPs rebid the
Phase II location data to ensure the most accurate information is
available. Policies on rebidding vary from agency to agency. At my
PSAP, the phone system we use automatically rebids every 15 seconds.
Further, because even 15 seconds in some cases can be too long to wait,
call takers can also manually rebid the location information at shorter
intervals.
    Phase II information sometimes lacks sufficient accuracy to ensure
a rapid and efficient emergency response. This is especially the case
for calls from indoor locations, where accuracy is compromised both by
the technical limitations of GPS, and the lack of vertical information
(often referred to as the ``z-axis'') for tall buildings. Yet, location
is especially important for indoor calls, as emergency responders are
often unable to make visual contact upon arriving at the approximate
address.
    As I mentioned, rebidding can help improve the location fix.
However, the rebidding process adds time to the call-taking/dispatching
process, potentially delaying emergency response to the correct
location. For indoor locations, even a rebid may not provide sufficient
information for responders to locate the caller quickly in a building,
or even identify the correct building in a dense urban area.
    From my own experience in the greater Salt Lake City area, we
encounter a diverse natural topography with mountains, canyons, large
gullies, and river bottoms that are often concealed by the surrounding
terrain. At the same time, we also have a bustling downtown complete
with subterranean parking, basements, and high-rise concrete
structures.
    Thus, I know first-hand of the impact to PSAPs from the growing use
of wireless phones to place 9-1-1 calls, as well as the technological
limitations of A-GPS technology in challenging environments such as
inside buildings. Further, we lack agreed-upon accuracy standards for
indoor environments. APCO stands ready to work with the wireless
industry, location technology vendors, our partners in the public
safety community, and the FCC to explore new wireless location accuracy
solutions that make sense for PSAPs and the general public. APCO would
also support revised FCC rules that require improvements in indoor
location accuracy over a reasonable period of time.
    I appreciate that the Subcommittee has taken up this important and
timely topic. This hearing will help highlight the needs of public
safety communications professionals who answer 9-1-1 calls and dispatch
emergency responders, to best serve the general public.
    Thank you for the opportunity to address you, and I look forward to
answering any questions you may have.

    Senator Pryor. Thank you. And you set a great example by
finishing 30 seconds early. We love that.
    [Laughter.]
    Senator Pryor. Mr. Stout?

       STATEMENT OF CLAUDE L. STOUT, EXECUTIVE DIRECTOR,

            TELECOMMUNICATIONS FOR THE DEAF AND HARD

                     OF HEARING, INC. (TDI)

    Mr. Stout [Speaking through an interpreter]. Thank you for
the opportunity to give this testimony. My testimony today will
focus on the exciting possibilities that can come from
improving our access to 911 services, more specifically,
through new and emerging location-identifying technologies.
    We highly applaud the FCC, APCO, NENA, CTIA, and the four
major wireless carriers--Verizon, AT&T, Sprint, and T-Mobile
USA--for listening to consumer demands and collaboratively
implementing new accessible solutions and emergency services,
such as text-to-911 and Next Generation 911.
    Deaf and hard-of-hearing Americans no longer rely on legacy
TTYs and have moved on, with everyone else, to using broadband
technologies for their communication needs, including access to
emergency services. Today we are using smartphones, tablets,
videophones, captioned telephones, or desktop computers.
    We can have direct communications with others that use the
same devices that we are using. For example, we use videophones
to converse with each other in sign language. And if we want to
call someone who doesn't know sign language or does not use the
same devices, we are able to call them indirectly by using a
video relay service, captioned telephone relay service, or
Internet protocol relay service.
    Many years ago, when deaf and hard-of-hearing people had to
make an emergency call on the TTY, we had to dial 911 on a
regular phone and then put the handset on an acoustic coupler
in order to transmit and receive tones between the phone and
the TTY. If we lost consciousness or just simply didn't have
the time or the ability to continue the phone call, we would
just drop the handset and leave it off the hook. Most 911
centers would still detect the originating telephone number and
the physical address linked to that number. In the absence of
any further information, the dispatcher would still verify the
call by sending at least a police officer to the site of the
incident.
    There seems to be a consensus today that, despite the new
technologies, we simply cannot send accurate location details
to the 911 center in an emergency. Current GPS and other
triangulation systems available on most wireless devices, such
as pagers, phones, or tablets, can only help 911 centers
pinpoint our street-level location to within 50 meters.
However, if we live or work in multistory buildings, the
responders can only identify the building address, not the
apartment or the office suite.
    We have learned that there are companies working hard to
improve location-identifying technologies that not only can
determine your location on a horizontal plane, known in the
industry as the X-Y coordinates, within 50 meters, but also
pinpoint the vertical Z coordinate, as well, within 3 meters.
This helps emergency responders to go directly to the floor and
to the room inside the building where the 911 call originated.
    Callers using voice or text could just concentrate on
giving a description of the emergency itself and not lose time
on trying to describe the location. This would be a huge plus
for anyone not familiar with their surroundings, such as
children, senior citizens, people with other disabilities, or
people just traveling through who are unfamiliar with the
territory.
    In the event that the caller is physically unable to
provide further information due a physical medical condition or
extenuating circumstances, such as during a kidnapping or an
escalating domestic violence scenario, help would be
forthcoming much quicker. Those that do not have any disability
will benefit from this new technology, as well.
    We simply want the same capabilities like anyone else to
initiate and participate fully in communications with emergency
services.
    Thank you.
    [The prepared statement of Mr. Stout follows:]

      Prepared Statement of Claude L. Stout, Executive Director,
    Telecommunications for the Deaf and Hard of Hearing, Inc. (TDI)
    Thank you for the opportunity to present this testimony. My name is
Claude Stout, and I am the Executive Director of Telecommunications for
the Deaf, Inc. (TDI). TDI \1\ is a national consumer advocacy
organization that shapes an accessible world by ensuring that 48
million Americans who are deaf or hard of hearing \2\ have equal access
to telecommunications, media and information technology. As a
nontechnical person, my testimony today will focus on the consumer
perspective on the exciting possibilities that can come from improving
our access to 911 services. More specifically, through new and emerging
location identifying technologies that can pinpoint the origin of our
voice or text calls with enhanced accuracy. I would like to compliment
the FCC for its excellent work so far in this important area.
---------------------------------------------------------------------------
    \1\ www.TDIforAccess.org
    \2\ http://www.hearingloss.org/content/basic-facts-about-hearing-
loss
---------------------------------------------------------------------------
    Over the past decade there have been tremendous changes in the way
Americans use technology to communicate with and obtain access to
emergency services. Deaf and hard of hearing Americans are benefiting
from this transition also. We no longer rely on legacy TTYs and have
moved on with everyone else to using broadband technologies for our
communications needs.
    Today we use smart phones, tablets, videophones, captioned
telephones or desktop computers. We make and receive calls like the
rest of you through several different channels. We can have direct or
``peertopeer'' communication with others that use the same devices we
are using, for example--we use videophones to converse with each other
in sign language.
    If we want to call someone that doesn't know how to sign, or does
not use the same devices, we are able to call them indirectly by using
a Video Relay Service. There are other different ways deaf and hard of
hearing people can contact their family or friends and conduct business
affairs, such as through Captioned Telephone Relay Services, or
Internet Protocol Relay Service.\3\
---------------------------------------------------------------------------
    \3\ http://www.fcc.gov/guides/telecommunications-relay-service-trs
---------------------------------------------------------------------------
    Many years ago, when deaf and hard of hearing people had to make an
emergency call on the TeleType or ``TTY,'' \4\ we had to dial 911 on a
regular phone and then put the handset on an acoustic coupler in order
to transmit and receive tones between the phone and the TTY. If we lose
consciousness or just simply don't have the time or the ability to
continue the phone call, we would just drop the handset, and leave it
off the hook. Most 911 centers will still get location details from the
Automatic Number Identifier (ANI) and Automatic Location Identifier
(ALI) \5\ features within the e911 system to detect the originating
telephone number and the physical address linked to that number. In the
absence of any further verbal (or textual) information, the dispatcher
would still verify the call by sending at least a police officer to the
site of the incident.
---------------------------------------------------------------------------
    \4\ http://www.911.gov/911-issues/serving.html
    \5\ http://www.911dispatch.com/911/911glossary.html
---------------------------------------------------------------------------
    There seems to be a consensus today that despite these advances,
there remain challenges with accurate location details when using a
wireless phone indoors in an emergency. The FCC exempted indoor
locations \6\ from its wireless location accuracy rules in 2010 pending
further studies and the availability of more accurate and reliable
indoor location technologies. Current GPS and other triangulation
systems available on most wireless devices today (ie: pagers, phones or
tablets) often do not work reliably indoors, and other trilateration
``fallback'' systems provide only generalized location information
which may cover many city blocks. Particularly if we live or work in
multistory buildings, the responders frequently cannot identify the
building address, and most certainly not the apartment or office suite.
This is a problematic issue that needs to be addressed.
---------------------------------------------------------------------------
    \6\ http://findme911.org/resources/providers-support-moving-
forward/
---------------------------------------------------------------------------
    Others can provide the technical details, but the consumer groups
understand from reviewing test results published last year by the FCC's
CSRIC industry advisory group. there are companies working hard to
improve location identifying technologies that can not only can
determine your location, generally within 50 meters on an horizontal
plane, known in the industry as the XY coordinates, but can also
reliably pinpoint the vertical ``Z'' coordinates \7\ as well within
three meters. This helps emergency responders to go directly to the
floor and to the room inside the building where the 9-1-1 call
originated. When this location information is included with a 9-1-1
call or text, callers and dispatchers can concentrate on the details of
the emergency itself and not lose time on trying to describe the
location. This would be a huge plus for anyone not familiar with their
surroundings such as children, senior citizens, or people just
travelling through who are unfamiliar with the territory.
---------------------------------------------------------------------------
    \7\ http://www.fcc.gov/document/amending-definition-interconnected-
voip-service-section-93-com
missions-rules-wireless-e911
---------------------------------------------------------------------------
    Once the connection is made to the public safety answering point,
the location information needs to be immediately and automatically
transmitted. This would allow the caller and the dispatcher to give
primary focus to the details of the emergency. In the event that the
caller was physically unable to provide further information due to
deteriorating medical condition such as a heart attack or stroke,
deafness or speech disability, or extenuating circumstances where it
becomes unsafe to speak such as during a kidnapping or an escalating
domestic violence scenario, since the location is already known to the
responders, help will be forthcoming much quicker. Even if a heart
attack victim was able to initiate a verbal or textual 9-1-1 call on
his wireless device, the victim may lose consciousness and become
unable to sustain a prolonged conversation with the 9-1-1 dispatcher.
    People with visual, speech, cognitive, or mobility disabilities
will not have to worry about consuming additional minutes trying to
identify their location as technology will provide that data for them
immediately. Those that do not have any disabilities will benefit from
these new technologies as well.
    Like the ANI and ALI features of legacy e911 services, we need the
same capabilities to call for help, and then let the location
identifying metadata be instantly transmitted to emergency responders
for prompt and timely assistance. Although today's communication
networks have become more robust in the last several years, it's
reliability still has not yet achieved the same parity with legacy
networks. Various systems are still vulnerable to disruptions from
natural phenomena and manmade incidents, and any call could be
disconnected without any advance warning.
    By transmitting key location data at the beginning of each call,
the 9-1-1 system would serve as a regionwide ``Life Alert'' system \8\
that would notify the PSAP an emergency has occurred, and to please
send help. Senior citizens living alone have relied on such alerting
mechanisms, but for us, we are unable to subscribe to these services,
usually because it involves a voice telephone call from the ``Life
Alert'' service personnel verifying our emergency prior to notifying
the local public safety agencies.
---------------------------------------------------------------------------
    \8\ http://www.lifealert.net/home/home.html
---------------------------------------------------------------------------
    I strongly applaud the FCC, APCO, NENA and the four major wireless
carriers, AT&T, Sprint, TMobile USA, and Verizon for listening to
consumer demands and collaboratively implementing text to 9-1-1 \9\ and
other efforts as part of the Next Generation 911 (NG-911) \10\ efforts.
I believe strongly this will be more powerful and useful if precise
location information including data on indoor location and floor level
where the call originated were included with every voice or text call.
---------------------------------------------------------------------------
    \9\ http://www.fcc.gov/document/chairman-genachowski-announces-
commitments-accelerate-text-911
    \10\ http://transition.fcc.gov/pshs/services/911-services/
nextgen.html
---------------------------------------------------------------------------
    Therefore, my first request is that location technologies deployed
to assist emergency wireless calling have a fast enough TimeToFirstFix,
or ``TTFF'' for the precise location information to be included in the
initial voice call or text to 9-1-1 message sent to the emergency
dispatcher.
    My second request is for stricter indoor location accuracy
requirements. Current FCC location requirements for outdoor calling
\11\ requires accuracy of within 50 meters 67 percent of the time and
within 150 meters 90 percent of the time. This may be adequate to
locate a caller outdoors or even indoors in a rural or less dense
environment. However, we understand that accuracy requirements less
demanding than 50 meters in an urban environment can only provide
general location information and may be inadequate to identify the
exact building location. In the interest of utmost public safety, this
request for accuracy of 50 meters or less needs to be given a very high
priority.
---------------------------------------------------------------------------
    \11\ http://www.fcc.gov/document/fcc-strengthens-e911-location-
accuracy-wireless-services
---------------------------------------------------------------------------
    My third and final request is to have floor level vertical accuracy
location information included with emergency calls or texts,
particularly in areas with dense urban and multistory buildings.
Although this attribute may not be as important in rural settings or
outdoors, it is critically vital in large multistory housing and office
complexes. We understand the high value that emergency responders place
on floor level accuracy as well. It is no less important to the deaf
and hard of hearing community and for people with other disabilities.
    We deeply appreciate this hearing today, and thank you for the
opportunity to express our concerns. Please know that the solutions
proposed by industry have the power to save lives by bringing immediate
help in time of need. We simply want the same capabilities like anyone
else to initiate and participate fully in communications with emergency
services. And if for some reason, we are medically or physically unable
to communicate our needs to the responders, or understand their
instructions, we would still be confident that help would be on its way
to us.
    Like our family members and friends who can hear, we do pay local
property taxes and Federal taxes that support our local public safety
services, and also pay subscriber fees to access the telephone networks
as a conduit to emergency services. As 9-1-1 centers continue to rely
on funding from these sources, so should we rely on them to be fully
accessible to every single one of us in the community.
    Thank you once again for this opportunity to speak with you today
about these important issues.

    Senator Pryor. Thank you.
    Mr. Guttman-McCabe?

            STATEMENT OF CHRISTOPHER GUTTMAN-McCABE,

                   EXECUTIVE VICE PRESIDENT,

                 CTIA--THE WIRELESS ASSOCIATION

    Mr. Guttman-McCabe. Thank you. And good morning, Chairman
Pryor and members of the Subcommittee. On behalf of CTIA, thank
you for the opportunity to participate in this morning's
discussion of 911 location accuracy and other issues that
impact the delivery of 911 services.
    CTIA and its members have a long history of working to
enhance the utility of wireless 911 services for consumers and
public safety officials. The wireless industry has worked
closely with Congress, the FCC, the PSAP community, technology
vendors, and others to improve the safety of consumers through
the development and deployment of innovative 911 solutions. As
a result, wireless carriers are meeting their regulatory
obligations and providing accurate and timely location
information to PSAPs that today receive more than 400,000 911
calls a day from wireless devices.
    Even with this impressive record, the industry hasn't been
resting on its laurels. Just over a year ago, working with NENA
and APCO, the four national carriers voluntarily committed to
offer their subscribers text-based emergency communications
services by mid-May of this year. This text-to-911 effort
represents an important step toward better meeting the
emergency communication needs of the deaf, hearing-impaired,
and speech-impaired communities who use wireless text-messaging
services every day, even as the wireless industry continues to
work toward a comprehensive, next generation 911 system.
    Additionally, the industry is actively involved in the
ongoing work of the Communications Security, Reliability, and
Interoperability Council, CSRIC, to examine the effectiveness
of various technologies and products through an indoor location
test bed. While CTIA is optimistic that the test bed process
can lead to results that will enhance indoor location accuracy,
we agree with the public safety experts participating in
CSRIC's E911 Location Accuracy Working Group that additional
development is required before first responders will have
access to the sort of actionable location information they
need, especially in urban and dense-urban environments.
    While neither the text-to-911 or CSRIC efforts on indoor
location accuracy require the imposition of rules by the FCC,
these initiatives, enhanced by billions of dollars in annual
investment in new wireless infrastructure and continued
innovation in the wireless device marketplace, promise to
expand the emergency communications capabilities available to
America's wireless subscribers and enable our first responders
to provide improved protection to the public.
    But even as we work toward that goal, important issues
remain that require policymakers' attention, and in my
remaining time I would like to highlight them.
    First, there is a need for clear, comprehensive, nationwide
limitation of liability protection for all entities
participating in any aspect of emergency services access,
including NG911 services. The current liability protection
framework is premised on protections available to legacy
telephone networks under state law, but the industry is rapidly
evolving to IP-based technologies in which services are
diverse, increasingly mobile, and potentially
multijurisdictional. All parties would be better served if
Congress enacts liability protection at the national level.
    Second, in multiple FCC reports stemming from the NET 911
Act, it is apparent that some states continue to divert fees
collected for the support of 911 services to pay for other
purposes. The diversion of these fees is unacceptable, and CTIA
urges Congress to use every tool at its disposal to halt the
practice of raiding 911 funds.
    Third, 31 states and several territories have adopted
point-of-sale collection statutes to ensure that those who use
prepaid services contribute to the support of the emergency
communications system. Several others are moving toward
enactment of point-of-sale collection regimes. However, a
number of states still have failed to do so, and their failure
to address this issue negatively impacts the emergency
communications system and creates comparative disparities among
service providers.
    Finally, CTIA urges Congress and the FCC to examine the
potential intellectual property implications associated with
the deployment of E911 and NG911 capabilities. A number of CTIA
members involved in the provision of 911 services have been the
subject of unfounded patent litigation, as patent trolls
attempt to use the FCC's rules to force carriers and their
vendors into licensing agreements or face crippling litigation
expenses.
    Senator Cardin has introduced the Protect Advanced
Communications for Emergency Services Act to address this
matter, and CTIA urges support for S. 1478 and other measures
aimed at curbing abusive patent litigation. Providing E911
service should not make the wireless industry a target for
predatory litigation.
    CTIA looks forward to working with the Subcommittee and
other stakeholders to address these issues and to ensuring that
America's wireless consumers have access to the world's most
comprehensive emergency communications capabilities.
    Thank you.
    [The prepared statement of Mr. Guttman-McCabe follows:]

 Prepared Statement of Chris Guttman-McCabe, Executive Vice President,
                    CTIA--The Wireless Association
    On behalf of CTIA--The Wireless Association, thank you for the
opportunity to participate in this morning' s discussion of 911
location accuracy and other issues that impact the delivery of 911
services.
    CTIA and its members have a long history of working to enhance the
utility of wireless 911 services for consumers and public safety
officials. The wireless industry has worked closely with Congress, the
Federal Communications Commission, the PSAP community, technology
vendors, and other interested parties to improve the safety of
consumers through the development and deployment of innovative E911
solutions. As a result, wireless carriers are meeting their regulatory
obligations and providing accurate and timely location information to
PSAPs that today receive more than 400,000 911 calls a day from
wireless devices.
    Even with this impressive record, the industry hasn't been resting
on its laurels. Just over a year ago, working with NENA and APCO, the
four national carriers voluntarily committed to offer their subscribers
text-based emergency communications services by mid-May 2014.\1\ This
text-to-911 effort represents an important step toward better meeting
the emergency communications needs of the deaf, hearing-impaired, and
speech-impaired communities who use wireless text-messaging services
every day, even as the wireless industry continues to work toward a
comprehensive Next Generation 911 system.
---------------------------------------------------------------------------
    \1\ See http://apps.fcc.gov/ecfs/document/view?id=7022074960 and
http://apps.fcc.gov/ecfs/document/view?id=7022074962.
---------------------------------------------------------------------------
    Additionally, the industry is actively involved in the ongoing work
of the Communications Security, Reliability and Interoperability
Council (CSRIC) to examine the effectiveness of various technologies
and products through its Indoor Location Test Bed. While CTIA is
optimistic that the Test Bed process can lead to results that will
enhance indoor location accuracy, we agree with the public safety
experts participating in CSRIC III's E911 Location Accuracy Working
Group 3, who have said that the Test Bed process indicates that
``additional development is required to ensure the positional
coordinates provided on an emergency caller sheltered indoors result in
an `actionable location' for emergency response, especially in urban
and dense urban environments.'' \2\ Vendors that believe they have
technology to provide this information should participate in the Test
Bed process. This will offer objective evidence to carriers, the FCC,
and the public safety community that a solution is ready for
deployment.
---------------------------------------------------------------------------
    \2\ CSRIC III E911 Location Accuracy Working Group 3, Indoor
Location Test Bed Report, March 14, 2013, at 8 (Public Safety
Foreword), available at http://transition.fcc.gov/bureaus/pshs/
advisory/csric3/CSRIC_III_WG3_Report_March_%202013_ILTestBedReport.pdf.
---------------------------------------------------------------------------
    While neither the text-to-911 launch or the CSRIC efforts on indoor
location accuracy require the imposition of rules by the FCC, these
initiatives, enhanced by billions of dollars in annual investment in
new wireless infrastructure and continued innovation in the wireless
device marketplace, promise to expand the emergency communications
capabilities available to America's wireless subscribers and enable our
first responders to provide improved protection to the public. But even
as we work toward that goal, important issues remain that require
policymakers' attention.
    First, as evidenced by comments from NENA, APCO, carriers, and
vendors in the FCC's proceeding on the Legal and Regulatory Framework
for Next Generation 911 Services, there is a need for clear,
comprehensive, standardized limitation of liability protection for all
entities participating in any aspects of emergency services access,
including NG911 services. The current liability protection framework is
premised on protections available to legacy telephone networks under
state law and regulations, but the industry is rapidly evolving to IP-
based technologies in which services are diverse, increasingly mobile,
and potentially multi-jurisdictional. Accordingly, all parties would be
better served if Congress enacts liability protection at the national
level, for both Federal and state causes of action, for all persons and
entities involved in the provision of and access to 911 services, on a
technology-neutral basis.
    Second, the ongoing effort to upgrade PSAP facilities and training
requires funding. However, in multiple FCC reports stemming from the
NET 911 Act \3\ (enacted in 2008 with leadership from Senator Nelson),
it is apparent that some states continue to divert fees collected for
the support of 911 services to pay for other purposes. While the
situation is better today than it was in 2009 when the first Report to
Congress was issued, it remains a problem in a number of states. The
diversion of these fees is unacceptable and CTIA urges Congress to use
every tool at its disposal to halt the practice of raiding 911 funds,
as the FCC suggested in its February 2013 Report to Congress and
Recommendations on the Legal and Regulatory Framework for Next
Generation 911 Services.\4\
---------------------------------------------------------------------------
    \3\ P.L. 110-283.
    \4\ Legal and Regulatory Framework for Next Generation 911
Services, Report to Congress and Recommendations, February 22, 2013, at
4.1.4.2, available at http://hraunfoss.fcc.gov/edocs_public/
attachmatch/DOC-319165A1.pdf.
---------------------------------------------------------------------------
    Third, since this Committee urged ``States and localities to study
fee structures that accommodate pre-paid telecommunications services''
\5\ when it crafted the NET 911 Act, thirty-one states, the District of
Columbia, and the U.S. Virgin Islands have adopted point-of-sale
collection statutes to ensure that those who use prepaid wireless
services contribute to the support of the emergency communications
system. Several others are moving toward enactment of point-of-sale
collection regimes. However, a number of states still have failed to
adopt the NCSL-endorsed model legislation to facilitate the collection
of 911 fees.\6\ With almost 23 percent of wireless subscribers choosing
to take service on a prepaid basis, those states' continued failure to
address this issue negatively impacts the emergency communications
system and creates competitive disparities among service providers.
---------------------------------------------------------------------------
    \5\ S. Rept. 110-142, at 9.
    \6\ http://www.ncsl.org/documents/standcomm/sccomfc/
Point_of_Sale_Model_Bill2010.
pdf.
---------------------------------------------------------------------------
    Fourth, to ensure that consumers have consistent public safety
expectations across America, the wireless industry also recommends that
PSAP regionalization and consolidation be encouraged. State-level
coordination is practical from a technical and financial perspective,
as the range of technologies envisioned for NG911 may impose higher
costs and administrative complexities that are better addressed at a
state or regional level than by an individual PSAP. The wireless
industry encourages the consolidation of PSAPs into regional PSAPs
covering as large a number of counties as can be efficiently served on
a regional basis.
    Finally, CTIA urges Congress and the FCC to examine the potential
intellectual property implications associated with the deployment of
E911 and NG911 capabilities. CTIA member TeleCommunication Systems Inc.
(``TCS'') has noted in comments filed at the Commission that companies
subject to the Commission's jurisdiction and others may own, control,
or develop intellectual property rights that are directly relevant to
the provision of 911 location services and sometimes use the
Commission's 911 rules to create ``an unfortunate arbitrage opportunity
for litigation-minded [intellectual property rights] holders, patent
assertion entities, sometimes called `patent trolls,' that use the
FCC's rules to force carriers and their vendors into licensing
agreements or face crippling litigation expenses.'' \7\
---------------------------------------------------------------------------
    \7\ Comments of TeleCommunication Systems, Inc., PS Docket Nos. 10-
255, 11-153, and 12-333, at 11 (Dec. 13, 2012).
---------------------------------------------------------------------------
    With this concern in mind, TCS has filed a Petition for Declaratory
Ruling and/or Rulemaking that asks that the Commission either issue
guidance that in all circumstances compliance with E911 rules is in
furtherance and fulfillment of a stated government policy, and
therefore is by and for the government, thus triggering 28 U.S.C.
Sec. 1498 \8\, or alternatively require that patents that cover E911 or
NG911 services and capabilities be offered for licensing pursuant to
reasonable terms and conditions that are demonstrably free of any
unfair discrimination.\9\ Senator Cardin has introduced the Protect
Advanced Communications for Emergency Services Act to address this
matter and CTIA urges support for S. 1478 and other measures aimed at
curbing abusive patent litigation. Providing E911 service should not
make the wireless industry a target for predatory litigation.
---------------------------------------------------------------------------
    \8\ This statute provides, in relevant part, that ``[w]henever an
invention described in and covered by a patent of the United States is
used or manufactured by or for the United States without license of the
owner thereof or lawful right to use or manufacture the same, the
owner's remedy shall be by action against the United States in the
United States Court of Federal Claims for the recovery of his
reasonable and entire compensation for such use and manufacture.'' 28
U.S.C. Sec. 1498.
    \9\ Petition for Declaratory Ruling and/or Rulemaking of
TeleCommunication Systems, Inc., GN Docket No. 11-117, WC Docket No.
05-196, PS Docket Nos. 11-153 and 10-255 (filed July 24, 2012).
---------------------------------------------------------------------------
    CTIA looks forward to working with the Subcommittee and other
stakeholders to address these issues and to ensuring that America's
wireless consumers have access to the world's most comprehensive
emergency communications capabilities.

    Senator Pryor. Thank you.
    Mr. Burroughs?

          STATEMENT OF KIRK BURROUGHS, SENIOR DIRECTOR

 OF TECHNOLOGY, QUALCOMM ENGINEERING SERVICES GROUP, QUALCOMM
                          INCORPORATED

    Mr. Burroughs. Good morning, Chairman Pryor, Ranking Member
Wicker, and members of the Subcommittee. On behalf of Qualcomm,
I would like to thank you for inviting me to this hearing.
    Qualcomm is a licensor of highly innovative wireless
technology and manufacturer of cutting edge chips for wireless
devices. Qualcomm was one of the primary inventors of A-GPS and
the first to implement Assisted-GPS. For more than 10 years,
Assisted-GPS has located millions of emergency callers and
saved lives.
    With an increasing number of indoor calls, the need to
accurately locate wireless users indoors is increasingly
important. As a result, Qualcomm and its partners are actively
researching and developing next generation technologies to
improve both outdoor and indoor wireless location accuracy in
the absence of any new Federal mandate.
    Based on the CalNENA report to the FCC and the recent FCC
workshop, there is some confusion about when and how an
accurate location estimate of an emergency caller is made
available to the 911 call center. I would like to clarify this.
    Currently, each 911 call from a mobile device is routed to
the call center that is closest to the device's serving cell.
The call center then uses a separate communication channel to
bid, often referred to as ``rebid,'' for a more accurate
location estimate. In other words, the call center has to ask
the network to provide it with the caller's location. This two
step process has not changed since E911 was first implemented
in response to the FCC's E911 mandate established over a decade
ago.
    Qualcomm participated in the last FCC Communications
Security, Reliability, and Interoperability Council, CSRIC,
which issued its report in 2013. We provided support to both
Verizon Wireless and Sprint in demonstrating their E911 hybrid
location technology, which utilizes both Assisted-GPS and
Advanced Forward Link Trilateration, AFLT. AFLT is a 3G
technology based on measurements of signals from cellular base
stations.
    The work of the last CSRIC was critically important, as it
enabled the industry to learn the state of technologies
available to improve indoor location accuracy. CSRIC invited
all industry participants to present location technologies for
independent third-party testing, and CSRIC reported the results
from three technologies. One of those was Assisted-GPS/AFLT,
which is an open standard with products available from multiple
vendors.
    There are several key points to note about the CSRIC
results. First, the results were obtained on unmodified Verizon
Wireless and Sprint networks. Second, this is the first
publication of performance results of A-GPS/AFLT. Third,
although this technology has worked well for over 10 years,
until recently the focus has not been on indoor performance.
The performance reported by CSRIC ranged from tens of meters to
hundreds of meters for indoor sites spanning from rural to
dense-urban environments. The CSRIC results confirm that this
3G technology works reasonably well indoors.
    But as I will explain, Qualcomm and its partners are
working on 4G-based technology that will perform better,
specifically Observed Time Difference of Arrival, OTDOA. OTDOA,
like AFLT, is handset-based and relies on the measurements from
cellular base stations. But 4G OTDOA technology has been
designed to perform even better than 3G AFLT, including through
use of signals that are dedicated to positioning.
    Qualcomm believes, and test data support, that OTDOA will
be a very useful indoor positioning technology for locating
emergency callers. Initial field trials of the technology show
that OTDOA is able to provide accuracies within a few tens of
meters. Even better results are expected in the future through
a robust roadmap of improvements for future generations of the
standard. All major U.S. carriers have plans to deploy OTDOA.
    Qualcomm believes in leveraging the 4G LTE cellular network
for indoor location for many reasons, including that cellular,
by nature, provides coverage wherever the call is made,
including indoors. OTDOA positioning is based on the trusted
and accurate information of the cell locations. OTDOA uses the
LTE handsets being deployed for voice-over-LTE services. Once
deployed, any LTE-capable phone from any vendor will support
OTDOA. No special handset hardware is required.
    CSRIC has reconvened and is proceeding with planning the
next round of testing. Qualcomm strongly supports this process
and CSRIC's recommendation to the FCC to consider including
OTDOA in a future test bed. This allows the industry and
regulators to make informed decisions.
    Qualcomm also believes that information about Wi-Fi access
points may be used to supplement indoor positioning that uses
Assisted-GPS and AFLT or OTDOA. Standards exist allowing for
Wi-Fi information, including the positions used by existing
consumer location services, to be provided as supplemental
information to E911 location servers. However, Wi-Fi solutions
face challenges because there is no assurance that Wi-Fi data
bases are accurate. Clarification of liability for an
inherently unreliable source might be a first step.
    In summary, currently deployed A-GPS plus AFLT-based
technologies work well when callers are outdoors and reasonably
well indoors.
    With an increasing number of indoor 911 calls, it is
important that additional technologies be implemented in order
to improve performance and the ability to quickly and
accurately locate emergency callers, wherever they are. This
process is well under way and is occurring in the absence of
any new Federal mandate. For example, the major U.S. carriers
are actively expanding their 4G LTE networks to enable OTDOA.
    Qualcomm recommends a measured approach by the FCC in
gathering data in considering how to support the industry's
ongoing efforts. Qualcomm believes the industry, along with
valuable participation from CSRIC, is moving in the right
direction in a reasonable timeframe.
    Thank you.
    [The prepared statement of Mr. Burroughs follows:]

 Prepared Statement of Kirk Burroughs, Senior Director of Technology,
       Qualcomm Engineering Services Group, Qualcomm Incorporated
    Qualcomm is a licensor of highly innovative wireless technology and
manufacturer of cutting edge chips for wireless devices. Qualcomm was
one of the primary inventors of Assisted-GPS and the first to implement
Assisted-GPS. For more than 10 years Assisted-GPS has located millions
of emergency callers and saved lives.
    With an increasing number of indoor 911 calls the need to
accurately locate wireless users indoors is increasingly important. As
a result, Qualcomm and its partners are actively researching and
developing next-generation technologies to improve both outdoor and
indoor wireless location accuracy in the absence of any new Federal
mandate.
    Based on the CALNENA report to the FCC, and the recent FCC
Workshop, there is some confusion about when and how an accurate
location estimate of an emergency caller is made available to the 911
call center. I would like to clarify this.
    Currently, each 911 call from a mobile device is routed to the call
center that is closest to the device's serving cell. The call center
then uses a separate communication channel to ``bid'', often referred
to as ``rebid'', for a more accurate location estimate; in other words,
the call center has to ``ask'' the network to provide it with the
caller's location. This two-step process has not changed since E911 was
first implemented in response to the FCC's E911 mandate established
over a decade ago.
    Qualcomm participated in the last FCC Communications Security,
Reliability and Interoperability Council (CSRIC), which issued its
report in 2013. We provided support to both Verizon Wireless and Sprint
in demonstrating their E-911 hybrid location technology, which utilizes
both Assisted GPS and Advanced Forward Link Trilateration (AFLT). AFLT
is a 3G technology based on measurements of signals from cellular base
stations.
    The work of the last CSRIC was critically important as it enabled
the industry to learn the state of technologies available to improve
indoor location accuracy. CSRIC invited all industry participants to
present location technologies for independent third-party testing, and
CSRIC reported the results from three technologies. One of those was A-
GPS/AFLT, which is an open standard with products available from
multiple vendors.
    There are several key points to note about the CSRIC results.
First, the results were obtained on unmodified Verizon Wireless and
Sprint networks. Second, this is the first publication of performance
results for A-GPS/AFLT. Third, although this technology has worked well
for over 10 years, until recently the focus has not been on indoor
performance. The performance reported by CSRIC ranged from 10s to 100s
of meters for indoor sites spanning rural to dense urban environments.
The CSRIC results confirm that this 3G technology works reasonably well
indoors.
    But as I will explain, Qualcomm and its partners are working on 4G-
based technology that will perform better. Specifically Observed Time
Difference Of Arrival (OTDOA). OTDOA, like AFLT, is handset based and
relies on measurements from cellular base stations. But 4G OTDOA
technology has been designed to perform even better than 3G AFLT,
including through use of signals that are dedicated to positioning.
Qualcomm believes, and test data support, that OTDOA will be a very
useful indoor positioning technology for locating emergency callers.
Initial field trials of the technology show that OTDOA is able to
provide accuracies within a few or tens of meters. Even better results
are expected in the future, through a robust roadmap of improvements
for future generations of the standard. All major U.S. carriers have
plans to deploy OTDOA.
    Qualcomm believes in leveraging the 4G LTE cellular network for
indoor location for many reasons, including that cellular, by its
nature, provides coverage wherever the call is made--including indoors.
OTDOA positioning is based on the trusted and accurate information of
the cell locations. OTDOA uses the LTE handsets being deployed for
voice over LTE services; once deployed, any LTE-capable phone, from any
vendor, will support OTDOA; no special handset hardware is needed.
    CSRIC has reconvened and is proceeding with planning the next round
of testing. Qualcomm strongly supports this process and CSRIC's
recommendation to the FCC to consider including OTDOA in a future test
bed. This allows the industry and regulators to make informed
decisions.
    Qualcomm also believes that information about Wi-Fi access points
may be used to supplement indoor positioning that uses Assisted-GPS and
AFLT or OTDOA. Standards exist allowing for Wi-Fi information,
including the positions used by existing consumer location services, to
be provided as supplemental information to E911 location servers.
However, Wi-Fi solutions face challenges because there is no assurance
that Wi-Fi databases are accurate. Clarification of liability for an
inherently unreliable source might be a first step.
    In summary, currently deployed A-GPS plus AFLT based technologies
work well when callers are outdoors and reasonably well indoors. With
an increasing number of indoor 911 calls, it is important that
additional technologies be implemented in order to improve performance
and the ability to quickly and accurately locate emergency callers,
wherever they are located. This process is well underway, and is
occurring in the absence of any new Federal mandate. For example, the
major U.S. carriers are actively expanding their 4G LTE networks to
enable OTDOA. Qualcomm recommends a measured approach by the FCC in
gathering data and considering how to support the industry's ongoing
efforts. Qualcomm believes the industry, along with valuable
participation from CSRIC, is moving in the right direction in a
reasonable time frame.

    Senator Pryor. Thank you.
    Mr. Forgety?

  STATEMENT OF TELFORD E. FORGETY III (``TREY''), DIRECTOR OF
 GOVERNMENT AFFAIRS AND REGULATORY COUNSEL, NATIONAL EMERGENCY
                   NUMBER ASSOCIATION (NENA)

    Mr. Forgety. Thank you, Chairman Pryor, Ranking Member
Wicker, Senator Johnson. I appreciate your being here today.
This is a very important issue that we are pleased to see
Congress taking an interest in.
    I have submitted my written testimony for the record, so I
would rather just talk with you a little bit about the history
of E911, how things came to be as they are, where they are
today, and some implications of the recent data that we have
seen released, and what public safety's needs are for the
future.
    So, first of all, let's talk a little bit about E911 and
how we got here. In 1968, the first 911 call was made from
Haleyville, Alabama. In those days, 911 was little more than a
call-forwarding number. You dialed 911, and the call got sent
by a local switch to a 10-digit number at a predesignated PSAP.
And I think that is an important point. It wasn't necessarily
the one for your jurisdiction; it was the one that the switch
was attached to.
    And that is sort of the same way we find ourselves today
once we have implemented E911 in wireless. Enhanced 911 gets us
a couple of things. First off, it gets us the ability to route
calls selectively to the right PSAP, not just the closest one,
the right one, so that we can get to the jurisdiction that is
actually responsible for providing services in the field.
    Second, it gets us the ability to identify the call-back
number of the wireless or wireline caller who makes a 911 call,
so if the call drops, which no one likes but it does happen, if
the call drops, we can get back to them. That is an important
point.
    And the third point is automatic location identification.
As several of the other witnesses have already noted, in the
wireline world we get a civic address. We get 123 Main Street,
Apartment 4B. That is a fixed data base process. It has worked
well since the late 1970s, early 1980s. In the wireless world,
things are very different because individual devices are not
tied to a specific location. So we have to come up with a way
to deal with the fact that these things are out there and they
move around a lot.
    And the way we do that in the routing regime--and, Senator
Pryor, you mentioned this in your opening statement--is we
decide in advance where every cell sector--and there may be
three to six or even more sectors per site--where every cell
sector is going to be routed. And then any 911 call that gets
attached to that cell sector is always going to go to the 911
center that that sector is tied to, regardless of where the
caller actually is jurisdictionally.
    That is one thing that improved location data will help us
to deal with, because it is not always the closest 911 center
that that cell sector is tied to. A perfect example: in
California, frequently a cell sector will actually route you to
a California Highway Patrol station that may be dozens or even
hundreds of miles away, because originally that was where all
of the wireless calls went to. It was assumed that they would
be coming from highways and interstates and freeways and so
forth.
    In order to get past that problem to where we can start to
route calls to particular places based on where the person
actually is, we have to have faster location capabilities. But,
moreover, in order to deal with the realities of how wireless
is used today, indoors, in cities, in tall buildings with
multiple floors, we have to have the ability to locate people
precisely. And that means down to the room level and the floor
level within a large structure.
    This building is a perfect example. This is a large
structure in an urban environment with multiple floors. Right
here and now, it would be challenging for public safety to
accurately locate any one of us or any one of you who made a
911 call. So we need those things.
    We need better, we need faster, and we need vertical.
    Now, I realize this is a lot, and as one of the other
witnesses cited, public safety has said that, look, we need
continued development so that we can get to the level we
ultimately need. But here is the thing. Technology is available
today--and the CSRIC process has already shown this. Technology
is available today to improve our ability to respond to
emergencies, to improve the ability of wireless networks and
devices to locate consumers.
    The time for further study, the time for further delay has
passed. It is time we improve our ability to locate consumers
when they are in trouble and the ability of public safety to
get to them when they are in need.
    Thank you.
    [The prepared statement of Mr. Forgety follows:]

  Prepared Statement of Telford E. Forgety III ``Trey'', Director of
  Government Affairs & Regulatory Counsel, NENA: The 9-1-1 Association
Summary

  1.  The mobile revolution has driven a rapid consumer exodus from
        wireline service and explosive growth in indoor wireless use:
        more than 38 percent of all households are now wireless-only.

  2.  Wireless calls now account for more than 70 percent of all 9-1-1
        traffic.

  3.  In some jurisdictions, as many as 50 percent of wireless 9-1-1
        callers can provide no useful location information by voice.

  4.  Even where callers can provide some location information,
        latitude/longitude information is still used to assign and
        route field responders.

  5.  Some data suggest that carriers may not always meet their
        existing location performance obligations.

  6.  The Committee should support an FCC inquiry to determine whether
        carriers currently meet their obligations, and, if not, why.

  7.  Existing FCC rules do not require any ability to locate wireless
        callers when they dial 9-1-1 from indoors.

  8.  Technologies that are already in the market on a competitive
        basis can provide sufficiently improved outdoor location
        performance and sufficiently meaningful indoor location
        performance to justify their adoption.

  9.  The Committee should support an FCC rulemaking to begin the
        phase-in of indoor location performance requirements.
Testimony
    Chairman Pryor, Ranking Member Wicker, and may it please the
Committee: My name is Trey Forgety,\1\ and on behalf of NENA: The 9-1-1
Association's more than 7,000 public- and private-sector members, I
want to thank you for holding this hearing. Providing emergency
response service is perhaps the core function of government, and 9-1-1
is the crucial first link between the public and emergency responders.
I would also like to thank Senators Klobuchar and Burr for their
leadership as the Senate Co-Chairs of the Congressional NextGen 9-1-1
Caucus, and Senator Boxer for her membership in the Caucus. All too
frequently, we hear ``public safety'' described only in terms of field-
response disciplines like law enforcement, fire, and EMS, so it is
particularly meaningful that you and the other members of the Caucus
have dedicated yourselves to ensuring that 9-1-1 is consistently
recognized as a co-equal component of the public safety community. I am
pleased, too, to be here today with representatives of the public
safety radio community, the cellular industry, disability advocacy
organizations, and technology providers. From consumer to
telecommunicator to dispatcher, to field responder, each of these
communities plays an important role in ensuring that emergency response
services are available, accessible, effective, and reliable for
everyone.
---------------------------------------------------------------------------
    \1\ I joined NENA: The 9-1-1 Association in 2010 after two years as
a Presidential Management Fellow in the Department of Homeland Security
(DHS) Office of Emergency Communications. During my fellowship, I
served temporarily with the Federal Communications Commission's (FCC)
Public Safety and Homeland Security Bureau and with the Department of
Commerce's National Telecommunications and Information Administration
(NTIA). At the FCC, I developed recommendations for the Public Safety
chapter of the National Broadband Plan. Later, at Commerce, I worked to
implement the Plan's recommendations as NTIA evaluated applications to
the Broadband Technology Opportunity Program (BTOP). Both at NTIA and
DHS, I participated in discussions with senior administration officials
from the Office of the Vice President, the Office of Management and
Budget, the Office of Science and Technology Policy, and the National
Economic Council to develop policies for the deployment of the
nationwide mobile broadband network for first responders, now known as
FirstNet. I hold a Bachelor of Science in Applied Physics and a Doctor
of Jurisprudence, both from the University of Tennessee.
---------------------------------------------------------------------------
    Since the establishment of the first official night watch at Boston
in 1631, local governments throughout our country have worked
diligently to ensure that all people can reach help in their moments of
need. In 1968, that work culminated in the establishment of a unified
emergency telephone number for all emergencies: 9-1-1. Over the years,
9-1-1 service evolved from little more than a call-forwarding
destination to a system that was, for its time, remarkable in its
sophistication and ubiquity. Enhanced 9-1-1 systems, introduced in the
1980s, can not only route calls to the correct local Public Safety
Answering Point, but can also provide a call-back number in case a
caller hangs up and display the address of the home or office building
from which a call originates. As time marched on, however, new
technologies radically reshaped the ways in which the public
communicates. The `80s and `90s brought us a mobile revolution
unimaginable only a decade before, and transformed the cellular
telephone from an expensive, heavy luxury into a affordable, tiny, and
ubiquitous means of communication.
    As the mobile revolution unfolded, it presented a series of
challenges to consumers, public safety agencies, and the nascent
industry. Access to 9-1-1, call-back capability to deal with dropped
calls, and caller location were all areas of significant technical and
policy disagreement. One by one, these challenges were overcome,
however, thanks to strong and unwavering voices from the public and the
public safety community, and, in key instances, from industry leaders
willing to do the right thing. Here, I would be remiss if I did not
highlight the contribution of FCC Chairman Tom Wheeler: It was he who,
as then-President of CTIA: The Wireless Association, engaged with
NENA's then-President Mary Boyd to conclude an agreement on wireless
E9-1-1 location capabilities that are the subject of today's hearing.
Without visionary leaders like Chairman Wheeler and Mrs. Boyd, the
United States might have succumbed to the forces of fear, uncertainty,
and doubt, and lost valuable time in establishing wireless as a primary
consumer technology. Even today, when mobile devices are used for
everything from hailing a cab to ordering dinner, the sense of safety
and security consumers derive from carrying a mobile device remains a
key motivator for service adoption--a motivator premised on the ability
of the consumer to reach 9-1-1 and of the 9-1-1 center to dispatch
help.
    In order to effectively respond to emergencies, 9-1-1 centers must
be able to tell field responders where to go. The basic technologies,
like GPS, which make that possible are now more than twenty years old,
a lifetime in today's technology cycle. Yet there are still
circumstances in which 9-1-1 centers cannot locate callers who, rightly
and reasonably, believe that when they call, they can be found.
Understanding that belief is critically important: In preparing for
today's hearing, I spoke with PSAP managers from several jurisdictions
around the country. In Pennington County, South Dakota, for example,
approximately 10-15 percent of callers can provide no useful location
information at all. These callers typically fall into one of two
categories: tourists visiting Mount Rushmore or hiking in the Black
Hills, and travelers transiting the I-90 corridor. Even for callers who
can provide some information, location coordinates still play a very
important role: In 50-70 percent of calls, the caller is unable to
provide a precise, dispatchable address. Examples of this type of call
include tourists in hotels, hunters, who may only be able to describe
the location where they parked based on a single road, farmers working
in fields that are not associated with addressed structures, and
patrons of shopping complexes calling from parking lots. In those
cases, the caller's information can sometimes be used to initially
mobilize response assets, while the precise latitude and longitude are
used to provide a final destination while the assets are in route.
Outside South Dakota, the problem can be even worse in some areas. For
example, in Horry County, South Carolina (home to Myrtle Beach and the
``Grand Strand''), sixty miles of beaches, fertile riparian soils, and
popular inland hunting grounds place millions of visitors, hundreds of
farmers, and thousands of hunters in remote or unfamiliar territory
every day. There, as many as 50 percent of callers cannot provide
meaningfully precise location information. Consequently, dispatchers
must resort to asking about nearby landmarks or waiting for latitude/
longitude data. And, of course, for millions of individuals with
hearing or speech disabilities, voice 9-1-1 calls (the only kind that
can currently be made in all but 20 jurisdictions), do not afford any
opportunity to supply information, location or otherwise. To solve
these problems and facilitate a public safety response, the FCC
requires wireless carriers to implement location determination
technology in their networks or subscriber handsets. Data derived from
those systems can then be used by local Enhanced 9-1-1 systems to
locate callers in need.
    Wireless Enhanced 9-1-1 is deployed in two formally-defined phases,
with an informal ``Phase 0'' added for the sake of completeness. Phase
0 permits wireless callers to reach a 9-1-1 center and provides only a
call-back number in case a call drops. Phase I allows the 9-1-1 system
to look up the address of the cell tower serving the caller, and in
many cases the cardinal or inter-cardinal bearing along the center of
the sector to which the caller's device is attached (e.g., N, W, NE,
SW, etc.). Phase II allows the 9-1-1 system to request more precise
location information related to the caller's device, rather than the
cell, and can provide the telecommunicator with an estimate of the
caller's latitude and longitude coordinates.\2\
---------------------------------------------------------------------------
    \2\ In all cases, wireless 9-1-1 calls are routed to a Public
Safety Answering Point based on fixed database entries that link each
cell sector with a pre-selected PSAP, regardless of where a caller may
be in that sector. That is, if a sector spans a jurisdictional
boundary, all calls will go to the assigned PSAP, even if it does not
actually serve the caller's location. One estimate, based on an
extensive routing study conducted in California, puts the fraction of
sectors with central-bearing errors between 90+ and 180+ at 10 percent.
Of course, not all such errors will necessarily result in misrouted
calls: only those sectors that subtend an area encompassing a
jurisdictional boundary will be subject to such errors. Consequently,
states like Texas and Tennessee, which have a large number of sub-state
administrative boundaries will likely experience a larger number of
errors, while states like Nevada and Colorado, which have a smaller
number of administrative boundaries, will likely experience fewer,
assuming the California findings are consistent across network
deployments in areas of varying jurisdictional density.
---------------------------------------------------------------------------
    PSAPs and 9-1-1 authorities must affirmatively request each phase
of service from each carrier serving their jurisdiction once they have
deployed the hardware, software, and training required to accept and
handle each new form of location information. Additionally, in many
states, PSAPs must pay carriers to provide the requested service out of
state- and locally-collected 9-1-1 fees, often with no audit or capital
amortization requirements. In those states much of the revenue
collected in 9-1-1 fees each year never reaches local 9-1-1 centers
because it is paid directly back to the carriers. As state legislatures
have raided 9-1-1 funds as a quick fix for short-term budget problems,
these dual pressures have left some local PSAPs contemplating a
previously unthinkable reduction in service from Phase II to Phase I or
less. While such a reduction would preserve core 9-1-1 operations, it
would also place countless lives at risk as PSAPs and field responders
struggled to locate callers without an address or lat/long coordinates.
Yet while PSAPs face dual pressures reducing their funding, carriers
reap a dual benefit to their revenues: Carriers sell consumer location
data, often derived from the very same hardware and software that
supports E9-1-1 operations, as part of Commercial Location-Based
Services offerings, generating almost $1 billion in revenues per
year.\3\ Given the dual revenue stream E9-1-1 location systems have
created for carriers in some states, then, it seems reasonable that the
public should expect not only assurances of adequate location
performance, but also concrete data to support those assurances. Until
recently, however, public safety agencies have lacked both the ability
to collect and analyze data on carrier network performance on their
own. And although the FCC's basic Wireless E9-1-1 location accuracy
rules have been in place for more over 12 years now, and localized
county- or PSAP-level performance rules have since been promulgated,
neither has the Commission collected any data on real-world carrier
location performance. That paucity of data, however is no longer the
rule.
---------------------------------------------------------------------------
    \3\ Mobile Location-Based Services, 7th ed., Research and Markets
(Feb. 2013) (available at http://www.researchandmarkets.com/research/
36fd44/mobile).
---------------------------------------------------------------------------
    The advent of ``big data'' analytics systems has begun to offer the
public safety community a glimpse into the world behind the curtain. As
PSAPs have deployed advanced Management Information Systems (MIS),
call-data monitoring platforms, and cutting-edge analytics and
visualization systems, they have gained insight into the apparent
performance of entire E9-1-1 systems, including wireless networks.
Here, it is important to emphasize that the data available to PSAPs is
apparent data: It reflects the reality experienced by the front-line 9-
1-1 telecommunicators responsible for answering calls on a daily basis,
and does not include visibility into the records, interfaces, or flows
of calls and data that lie strictly within carriers' networks.
Nonetheless, it is the apparent data which matter: Telecommunicators
cannot dispatch help based on information that never reaches them. As
these apparent data have become available, they have raised myriad
questions and legitimate concerns throughout the 9-1-1 community.
    Over the Summer CalNENA, the independent chapter of my organization
that serves the state of California, released data which appeared to
show two causes for concern: First, the data showed a surprisingly
small fraction of wireless 9-1-1 calls for which Phase II latitude and
longitude data were displayed to the telecommunicator by the end of the
call. Second, the data showed a long-term secular down trend in the
fraction of calls for which Phase II latitude and longitude data were
displayed to the telecommunicator by the end of the call for all but
one of the four largest wireless carriers. Since that time, additional
states and localities have filed data with the FCC, some of which
supports the CalNENA findings, and some of which does not. After
reviewing all publicly-available data in concert with the carriers,
CalNENA officials, analytics experts, and NENA's own technical experts,
we discovered several issues that could potentially explain, at least
in part, the low overall apparent performance of the carrier networks,
as well as the apparent down trend in the fraction of calls with Phase
II data.
    First, we discovered that the apparent down-trend in Phase II
availability could be explained, at least in part, by an industry-wide
transition away from older ``network based'' location technology to
newer ``handset based'' technology. Network based location systems have
historically used Location Measurement Units (LMUs) situated on cell
towers to listen for precisely-timed transmissions from mobile devices.
Based on the speed of light in air and certain other known properties
of radio signal propagation, these units could then combine 3 or more
distance measurements to estimate the location of the caller's device.
This approach can provide a very fast ``Time To First Fix,'' but only
at the expense of producing a lower-accuracy estimate of position.
Newer handset-based solutions, by contrast, can produce much more
accurate position estimates, but take a longer time to acquire a fix as
they must ``listen'' for signals from lower-powered satellite
transmitters (e.g., GPS, GLONASS). Because PSAP equipment typically
makes an initial request or ``bid'' for Phase II location data at a
fixed time after a call is connected, the transition from fast but less
accurate technologies to slower but more accurate ones could have
produced the trend observed by CalNENA in the absence of a timing
change at the PSAPs. This would have lowered apparent location yield
early in calls, but potentially improved location accuracy once a fix
was obtained later in calls.
    Second, we discovered that long-since overcome technical challenges
associated with certain early CDMA handsets, coupled with erroneous
beliefs about carrier charges for location update requests or ``re-
bids'' had led to a widespread policy against the use of automatic re-
bids. This policy may have prevented the PSAPs involved in the CalNENA
study from receiving Phase II location information when it might
otherwise have been available, thus lowering carrier's apparent rate of
Phase II location delivery. Consequently, it could be assumed that
reinstituting automatic rebids would raise the apparent fraction of
calls for which Phase II location information is available.
    Third, we believe that fundamental changes in consumer use patterns
for mobile devices could be driving down the fraction of calls for
which Phase II location information can be estimated. As originally
envisioned in the FCC's rules and incorporated into wireless network
architecture, location determination obligations were premised on
callers using mobile devices outdoors. At the time, mobile airtime was
expensive, the vast majority of consumers still had landlines at home
and at work, and cellular devices were still thought of as ``car
phones.'' It was therefore logical to assume that such devices would be
used primarily outdoors on roads and highways. Now, however, mobile
devices have become the default and landline use has declined
precipitously. In its place, almost 40 percent of consumers rely solely
on wireless devices for their everyday communications needs, including
access to 9-1-1.\4\ Indeed, most 9-1-1 centers report that more than 70
percent of all calls they receive originate from wireless devices. It
follows, then, that a higher fraction of calls now originate from
indoors locations where landline calls would previously have dominated.
Because this state of affairs could not have been anticipated at the
time the rules were implemented, it has caught consumers, public
safety, carriers, and technology providers somewhat off-guard.
---------------------------------------------------------------------------
    \4\ Blumberg, Stephen J., Ph.D., & Luke, Julian V., Wireless
Substitution: Early Release of Estimates from the National Health
Interview Survey, July-December 2012, Division of Health Interview
Statistics, National Center for Health Statistics, Centers for Disease
Control and Prevention (Jun. 2013) (available at: http://www.cdc.gov/
nchs/data/nhis/earlyrelease/wireless
201306.pdf).
---------------------------------------------------------------------------
    I wish to emphasize, however, that it is still possible that none
of these explanations may fully explain the discrepancy between the
levels of location performance reported by many carriers after the
CalNENA filing and the levels found in the CalNENA study. To date,
carriers' assertions of aggregate performance levels have not included
disclosures of the underlying data which might allow public safety
agencies or the FCC to fully evaluate their claims. This is a key
point: NENA has been unable to locate any record of a location
performance audit conducted by the FCC since that agency first adopted
its location accuracy rules in 2001. Carriers routinely report that
they are in compliance with their location performance obligations.
They may well be. But while NENA believes the general level of location
performance to be decent, the experience of front-line
telecommunicators, anecdotal though it may be, paints a concerning
picture of real-world results. NENA therefore supports a policy of
``trust, but verify.'' To that end, we strongly support the
establishment of a meaningful disclosure and monitoring regime to
ensure that these critical public safety service obligations are met
consistently throughout the United States. Whether such is a regime is
established through cooperative efforts between NENA and the carriers
or by the FCC, I sincerely hope we find that they are.
    All of this debate about whose data says what and how it should be
interpreted, however, is, to some extent, beside the point: Ultimately,
what matters to the public safety community and to consumers is whether
a caller can be accurately located when she or he calls for help.
Circumstances today are very different than they were in 2001. New
technologies are already in the market, ready to compete, and can
provide improved location capabilities that reach inside homes and
businesses to the places where consumers use mobile devices today. As
mobile networks move into the 21st century with advanced broadband data
capabilities and high-accuracy location technologies for consumer
applications, it is critical that we ensure 9-1-1 systems are not left
behind. Now, anticipation and speculation about a potential indoor
location requirement may be holding back carrier investments in
improved location technology.
    Over the past year, the FCC investigated the potential of several
new or improved technologies through a rigorous test bed process
conducted through the Communications Security Reliability and
Interoperability Council or ``CSRIC.'' CSRIC is a Federal Advisory
Committee composed primarily of carrier and technology vendor
representatives, but which also includes a few public safety
representatives. As part of the test bed, CSRIC retained the services
of a neutral, third-party testing company to ensure competing location
technologies would be evaluated on a thorough and fair basis.\5\ The
results of the CSRIC trials were clear: All three technologies
subjected to testing could permit some degree of indoor location
performance for some morphologies, and two of the three showed
significant improvements over existing capabilities across all
morphologies (e.g., urban, rural, etc.).\6\ Likewise, a fourth solution
provider that did not participate in the initial round of testing later
submitted to the test bed's scrutiny and also demonstrated the ability
to provide meaningful location information for callers in indoor
environments. And, lest these be thought the only technologies
available, companies as diverse as Apple, Boeing, and John Deere have
also introduced location technologies that could be leveraged for 9-1-1
purposes.
---------------------------------------------------------------------------
    \5\ CSRIC Working Group IV: E9-1-1 Location Accuracy Indoor
Location Test Bed Report (Mar. 14, 2013) (available at: http://
transition.fcc.gov/bureaus/pshs/advisory/csric3/CSRIC
_III_WG3_Report_March_%202013_ILTestBedReport.pdf).
    \6\ Id. at 35-36.
---------------------------------------------------------------------------
    Because the market for new and improved location technology has
proven its ability to better meet the needs of the public safety
community on a competitive basis, NENA is convinced that the time for
study is at an end: While we support the continued operation of the
CSRIC test bed as a means to provide unbiased evaluations of new
technologies willing to endure its rigors, we do not believe that its
existence should become a perpetual excuse for delay. The public and
the public safety community need improved location performance--both
outdoors and in--today. Every moment we delay the start of those
improvements lives, property, and productivity are needlessly lost. We
therefore encourage the Committee to support immediate FCC action to
establish indoor location performance targets and a concrete timeline
for their implementation.
            Respectfully submitted,
                                   Telford E. Forgety, III,
                                      Tenn. BPR No. 027226,
                                    Director of Government Affairs
                                              & Regulatory Counsel,
                                           NENA: The 9-1-1 Association.

    Senator Pryor. Thank you.
    We are going to start our round of questions here.
    Mr. Forgety, let me start with you on your last point
there. You basically said we need better, faster, vertical, and
you talked about technology. Is it your view that the
technology is here today to get all this done, or are we still
evolving the technology?
    Mr. Forgety. Senator Pryor, this has been an area of
intense innovation across the wireless networking and wireless
device space. The answer to your question straightforwardly is
yes. We have technology now in wireless handsets that can
locate us for commercial location-based services very
precisely.
    As Mr. Burroughs mentioned, there are challenges in terms
of making sure that we have reliable sources when we use things
like Wi-Fi, Bluetooth beacons to locate things. But there are
also services that are out there on the market today, ready to
go, that can get us in-building and vertical.
    So the answer, quite simply, is yes.
    Senator Pryor. OK.
    And let me do a follow-up there. Does it take the FCC to
get all this done, or can industry and just, in a more
collaborative effort get it done? Or does the FCC have to lead
the way?
    Mr. Forgety. Senator, I would like to see a world where
this can get done without FCC action. The reality for the
public safety community is that, in general, it does take
regulation, simply because we have a very diverse market.
    You know, we may be able to get to, say, the top 4 or the
top 10 or the top 50 carriers to get the right thing done. The
challenge, ultimately, is public safety operates in every
corner of this country, and every citizen, regardless of where
they live, be it urban or extremely rural, deserves the same
level of service.
    Senator Pryor. Mr. Burroughs, let me follow up with you on
one of Mr. Forgety's answers there, where he said basically, in
his view, the technology is here today. And I know you
mentioned a lot about technology in yours. So is it your view
that the technology is here today, or is it still evolving?
    Mr. Burroughs. Both. There is certainly technology that
exists today that is being deployed that improves the accuracy,
and there is a continuous roadmap for it to get better over the
years via standardization and future deployments.
    Senator Pryor. And does that also include the Z, the
vertical?
    Mr. Burroughs. Yes.
    Senator Pryor. And you think it is ready--I will use a
layman's term. Is it ready for primetime? I mean, is it ready
to be deployed nationwide?
    Mr. Burroughs. The Z axis is a bigger challenge. The X-Y
axis is being deployed in the 4G networks today.
    Senator Pryor. OK.
    Ms. Smith, let me ask you a question about your experience
as a PSAP manager. Can you just elaborate a little bit on some
of the specific challenges that 911 call centers face in this
wireless world?
    Ms. Smith. Yes. It would be hard for me to speak for any
specific PSAP, so I will speak for my own, but I do know that
we are seeing an increase in users of wireless phones. They are
cutting the cord, as mentioned earlier today.
    And we are seeing it--it depends on, when I ask my call
takers and my staff, what are you seeing and what are you
experiencing, depending on, you know, the day of the week and
possibly the shift, I may get a different answer. So I don't
have specifics, but we are seeing a rise in the trend.
    Senator Pryor. And if you feel like you are qualified to
answer this, do you think that we need the FCC's leadership to,
you know, get a nationwide system here? Or do you sense that
technology and the industry will just kind of all work together
and collaboratively get us there?
    Ms. Smith. We definitely support collaboration, but we also
realize that there are times, there are occasions when we do
need a regulatory body to help us go down that path.
    Senator Pryor. OK.
    Mr. Guttman-McCabe, let me ask you--first, let me say I
appreciate what your industry has done, as well as Mr.
Burroughs' industry, not just company but industry generally,
because you all really have been innovative in working on this
and, you know, have been trying to lead the way on this. So I
appreciate you all for doing that.
    But will your association commit today to work with the FCC
if they in fact do set a more formal process, if in fact they
do actually get rolling on this officially? Will you all
participate in that and try to work with them to update any
standards or, you know, help them craft something that makes
sense nationally?
    Mr. Guttman-McCabe. Certainly. Thank you, Mr. Chairman.
And, certainly, we will work with the FCC, with public safety
entities.
    I have to say I do have some concern about a regulatory
process, you know, happening before the technology actually
exists. So while I agree to some extent with what Mr. Forgety
and Mr. Burroughs said, I also look at the recent CSRIC process
and the results that came out of the three entities that
decided to test their location accuracy. The one that did the
best found the person in one-third of the buildings where the
call was actually being made.
    So there is a great deal of work. I know that Qualcomm and
others are working on technologies that absolutely will improve
the process. The carriers are actively and aggressively
involved in it. You know, a great deal of resources are being
spent by all of the entities at this table to try to move this
process forward. And no one would like nothing more than to be
able to locate someone, you know, in extremely close proximity
to where they are actually making their call. That is the goal.
    There is a concern--and, I mean, I sat in front of Congress
10 years ago and testified as we talked about some of the other
911 issues. And when those rules were set based on promises
made by technology vendors that never came true, 10 years later
and 30 FCC proceedings removed, we are still today talking
about location accuracy at the numbers, you know, that we set
many, many years ago. So I do want us to be cautious about
having an FCC process get ahead of the actual technology
capabilities.
    When we sat in front of the Senate and the House on
emergency alerts and we had a collaborative process that
brought all of the parties together, like the current CSRIC
process, we launched emergency alerts without any follow-on FCC
proceedings, no appeals, no challenges, and we have a working
technology in emergency alerts. The same is true with wireless
priority service.
    So I think a collaborative, CSRIC-based approach, which is
actually reviewing in real-time a test bed, real products in
real-time in a real location, an urban, a dense-urban, a
suburban, and a rural environment, is the right way to move
forward in this. And as the technologies are developed, our
carriers will implement them. They have a history of
implementing the technologies in this space aggressively and
quickly.
    Senator Pryor. Thank you.
    Senator Johnson?

                STATEMENT OF HON. RON JOHNSON,
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    Well, there is a conflict in testimony right off the bat
here. So I guess let me go to Mr. Forgety.
    You say the technology exists. So what is the hang-up? What
is preventing it from being implemented effectively?
    Mr. Forgety. So I think we are looking at two things. First
is a semantic difference. The technology clearly does exist. I
think the challenge is public safety has a level of need. We
want to be able to locate down to the room level and down to
the floor level, but today we can't get anywhere close to that.
And having the technology that we have today is clearly better
than having nothing.
    So having something that is better but maybe not perfect I
think is still good. And I think from the public safety
standpoint, we don't want to let the perfect be the enemy of
the good and therefore delay implementing technologies that are
available.
    So the second thing, I think----
    Senator Johnson. But, again, the question was, what is
preventing us from utilizing what technology we have for the
good as opposed to the perfect? What is preventing it?
    Mr. Forgety. And this, I think, is my second point, which
is, at this point, we have gotten ourselves to a circumstance
where the fact that the FCC has not acted may actually be
preventing implementation of technologies, as everybody waits
around to see what the action will be. In other words, until we
know what the rule is going to be, people don't want to spend
capital to invest in products that might not meet what the
ultimate rule is or might be overkill.
    Senator Johnson. But what is the required action? What does
the FCC have to do?
    Mr. Forgety. I think the FCC needs to open a rulemaking
proceeding to decide what the requirements ought to be and what
the time-frame for the phase-in should be for those
requirements.
    Senator Johnson. Mr. Guttman-McCabe, can you just respond
to that?
    Mr. Guttman-McCabe. Certainly, Senator.
    I guess I would question, sort of, based on what? So how do
you set indoor location accuracy requirements when you just did
a test bed and the three entities that chose to participate--
there were nine that began the process. This is very similar to
our original 911 process. There were nine that began; only
three were willing to actually go through and test in the light
of day in front of public safety officials, in front of other
vendors, in front of the FCC, and in front of carriers. And
none of those three were materially better in terms of, you
know, the ability to deploy in a timely basis, the ability to
find people accurately.
    And we think this process is moving forward. I know that
there is a standard that has been developed and it is part of
the 4G networks. And as we deploy our 4G networks, our LTE
networks, the capabilities absolutely improve. They allow
carriers to run simultaneously multiple different services to
try to find a person, which is unique and new.
    And that is happening, I mean, the fact that we have
people, you know, carriers and vendors all working together
with public safety officials and the FCC to try to test these
technologies. As soon as there is one that is capable, that is
deployable--the one that worked the best has already said that,
at best, it could come out in 2016 in 27 urban markets, or 26
urban markets.
    So, you know, the reality is we are trying to find a
solution that we can deploy throughout the United States to
find people in your jurisdiction, in your state and in others,
and do it in a way that actually improves the ability to find
people.
    Senator Johnson. So, Mr. Burroughs, you know, I am amazed
at the advancement of--you know, I have the old navigation
system in my car; I never use it because I use this. I am
sitting in a house, and it has me--my little blue dot is right
where I am sitting. So the technology has already advanced
quite a bit.
    I am concerned about writing rules at the FCC that do
outstrip reasonable advances in technology. So I kind of want
you to basically respond to that.
    Mr. Burroughs. OK, yes. Thank you, Mr. Senator.
    Yes, so I want to echo the concerns and comments from Mr.
Guttman-McCabe here, is that you need the technology--the
decision should be based on the actual data, the technology.
And even though the 4G technology shows promise, it has yet to
have gone through the scrutiny of a CSRIC test bed so that
everyone can look at it in the light of day and see its
performance.
    We are confident that it will provide the type of
performance you need to enable the location of indoor accuracy
at some acceptable level. But you can't outpace the laws of
physics, you can't outpace the laws of the technology. So it
needs to be tested, and then decisions based on that.
    Senator Johnson. I mean, just listening to the testimony,
it does sound like there is fair amount of collaboration,
sounds like there is a real will within the industry. I mean,
does everybody agree with that?
    Mr. Burroughs. Yes.
    Senator Johnson. I would like to quickly go back to you,
Mr. Guttman-McCabe. I am concerned about liability protection.
I would think that would be one of the real drags on moving
this thing forward. If companies really feel like, you know,
through their best efforts, they are trying to locate people,
and if they are not quite perfect, all of a sudden they face
lawsuits, I would think that would be a real concern. I would
certainly want to support liability protection.
    Can you speak to that in a little more detail, as well as
the patent troll aspect here?
    Mr. Guttman-McCabe. Yes, certainly, Senator.
    Well, the liability issue is a difficult one because it is
currently based on a state-based regime. And it is difficult
for carriers to go into specific states and say, your 911
liability protection legislation or regime is imperfect and it
creates an invulnerability, because, you know, God forbid
something were to happen in that state, you are now on record
saying that the state's liability protection is lacking.
    So we believe if something could happen, as it has in
times, at the Federal level, you will provide sort of a blanket
over top of that. If a carrier or a vendor or a PSAP is acting
in, you know, its best efforts and really trying to provide
this service, they shouldn't be the subject of litigation.
    And so something at the Federal level which would provide
protection for those that are actually responding to FCC rules
or delivering on a 911 service, any provider of that service
should be protected.
    Senator Johnson. So does anybody disagree with that?
    Mr. Forgety. No. NENA has actually supported exactly the
type of liability protection that Mr. Guttman-McCabe mentioned
as part of the Middle-Class Tax Relief Act of 2012. Didn't make
it in that round, but it is something that we categorically
support.
    Senator Johnson. Of course, we don't have any trial lawyers
at the table there.
    [Laughter.]
    Senator Johnson. OK. Thank you very much, Mr. Chairman.
    Senator Pryor. Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL,
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman. And thank you
very much for having this hearing.
    As we have seen already, there is a real importance to
assuring the kind of protection that I think all of you believe
is increasingly important with respect to the location accuracy
of E911 calls. And, as we all know, dialing these numbers can
be one of the most important phone calls anybody makes in his
or her own life, entire life.
    I want to focus on the FCC rulemaking issue. Commissioner
Rosenworcel has indicated that she believes that a formal
rulemaking proceeding is important to explore these questions.
    I understand, Mr. Guttman-McCabe, that you believe that
advancing technology is an argument against rulemaking
proceedings. But that happens all the time in the FCC; there is
always advancing technology. And right now we have no rules.
    So my question really is to all of you, but let me begin
with Mr. Forgety and Ms. Smith, because your organizations
believe that indoor accuracy must be improved and FCC
requirements would help. At least that is the thrust of what I
have understood your testimony to be.
    Don't you think that the FCC should open a formal
rulemaking proceeding to explore whether there can be standards
and requirements imposed in this area?
    Mr. Forgety. Senator, the answer is yes and soon.
    And, you know, to the point that advancing technology makes
this a complicated question, it does, but that is why we have
the Administrative Procedure Act. The Commission is bound to
consider all of the evidence put before it, in terms of the
performance capabilities of the various technologies. So I
think the interests of innovators and carriers and location
vendors would be protected through that requirement.
    Senator Blumenthal. Ms. Smith?
    Ms. Smith. And, yes, I echo ``yes and soon.''
    Senator Blumenthal. And let me just go, then, to whoever
may be opposed to the formal rulemaking procedure. Don't you
think that the public has a right and a legitimate expectation
that there be standards in this critical area? Isn't that the
purpose of the FCC's existence?
    And shouldn't it at least begin to address this topic,
giving all of you a chance, as it would be required by law
under the Administrative Procedure Act, to be heard on what the
rules should be and perhaps even whether there should be rules?
    Mr. Guttman-McCabe?
    Mr. Guttman-McCabe. Sure. Thank you, Senator.
    I don't disagree with the--absolutely don't disagree with
the goal of trying to improve location accuracy outdoors,
indoors, continue the evolution. We just launched text-to-911
to try to provide a solution in that space.
    I have to say, again, having lived through it, I am
concerned about initiating a regulatory process when we haven't
found a technology solution, in spite of the fact of, you know,
vendors that would have a great deal of financial interest in
finding a solution can't find a solution, including the company
next to me, which is a member of CTIA.
    So I believe that the FCC has a process in front of it; it
is the FACA, it is the CSRIC process, which they have convened.
They have a bully pulpit if they don't think that that is
moving quickly enough.
    I do believe that that is a collaborative effort. I have
been around these processes enough to know that, particularly
in the public safety space, that the collaborative processes
work immeasurably better. I wrote a law review article on it, I
felt so passionate about it--I don't know what compelled me to
do that--about 5 or 6 years ago. But I believe that the
collaborative process works better.
    And I am fearful, to some extent, that, you know, the FCC
is starting a process, that they will develop standards based
on vaporware or assurances from vendors which won't come to
pass. We have seen it before.
    And so that is where our concerns lie, not with ultimately
setting standards once we have a capability and a technology
that can deliver on that. That is not where--and so I hope I am
not misrepresenting my members or myself. But I just don't want
to have the cart get before the horse.
    Senator Blumenthal. I understand that point. I don't know
whether I will use the cart-and-horse analogy, but sometimes
the certainty and predictability of a rule can be an assurance
and an incentive for the private industry folks to know what
they are aiming to do with new technology, what the standards
and requirements are going to be. We hear a lot here about the
problems of uncertainty and lack of predictability. And
sometimes rules are a good thing.
    Mr. Guttman-McCabe. Sure.
    Senator Blumenthal. And I happen to believe that a formal
rulemaking process is appropriate and necessary in this area
because of its importance and precisely because of the
uncertainties that otherwise might prevail. But I think I
understand your point.
    I want to switch briefly, if the chairman would indulge me
with just a couple more minutes, with a question for Mr. Stout
on 911 for people with disabilities, particularly the hearing-
impaired and speech-impaired.
    I have heard from many of my constituents recently
regarding changes by the FCC to the Internet Protocol Captioned
Telephone Service, known as IPCTS. We deal here with acronyms
by the dozens, and that one is a little bit tongue-tying, for
me at least.
    But I am sure you are familiar with the captioned telephone
service, which is an amazing technology, and it supports vital
services for the hearing-impaired and speech-impaired. But many
of my constituents who depend on such services have written to
me, worried about the impact of the rule changes by the FCC.
    And one of the FCC's new rules requires users of IPCTS to
press a ``captions on'' button at the start of a call to turn
on the captions services. And I just want to read to you an
excerpt from one of those letters because I think it was very
telling, to me, to hear this information from a constituent
from Hartford, whose father is 82 years old and suffers not
only from hearing loss but also shakes as a result of some
medical condition, I mean physical impairment.
    And she wrote, ``My primary reason for giving him the phone
was so he would be able to call 911 in an emergency and would
be able to understand instructions from the operator. If the
captioning is not automatic, he has to use a shaking hand to
push a button, which he may strike multiple times or not at
all, making the button more scary and dangerous if he can't
understand the person on the other line.'' So we are dealing
with an 82-year-old gentleman who has not only the hearing or
speech impairment but also the physical impairment.
    I would appreciate your perspective on telecommunications
for the deaf and hard of hearing and your comments, most
especially on whether you have heard any of these kinds of
complaints about the added difficulties that recent changes
have had and the effects on people, the captions on'' button,
any of the related change in the FCC rules.
    Mr. Stout [Speaking through an interpreter]. Certainly.
    What you have to realize is that, historically speaking,
for several years the consumers using the IPCTS phones had them
on demand, so when the phone came with a phone call, then they
were there. But in the last couple of years, the FCC made a
decision to change that so that some people, particularly the
hearing members that are in the household living with a person
who does need to use the assistance of the phone, were making
phone calls while the captions were still on even though that
person didn't need that because they were hearing. And that,
unfortunately, was impacting the budget in the FCC; it was
using the funds.
    And so the FCC made that change to require that there was a
default-off function on the phone. And so this is what happened
to your consumer and to other consumers that are out there. So
we have seen that.
    I mean, the good news about that is that your constituent,
the fellow that you mentioned in your story, could make an
application to the vendor to request a waiver to that and could
get back the original default-on feature for the device because
of his particular medical condition. And so then he wouldn't
have to try and deal with the default-off function. And that is
because he has a legitimate medical concern for that, and so
there wouldn't be an argument for him to have a default-on
function.
    But from what I have been hearing from the testimony of the
other witnesses and from you Senators here today, we support
the FCC going ahead and working on the rulemaking for this
topic. For any of the disability access issues, we have seen
that we need to have government and industry cooperation and
that they all need to act together. If we wait for one company
to innovate or another company to take the lead, we find
ourselves wasting time and getting lost in the process.
    I believe that it is time for the FCC to get involved in
the rulemaking on this process, first of all, and then to come
forth with a decision on the rule to the industry.
    You know, as Mr. Guttman-McCabe mentioned, you know, it is
an issue of allocation of resources within the location
technologies. But, honestly, we can't wait. We are going to
lose more lives. And those people, our consumers, need to be
protected, they need to be saved.
    Senator Blumenthal. Thank you very, very much. That comment
was very helpful and insightful. And I think I am going to want
my staff to follow up with you to see whether we can be helpful
to my constituent.
    Mr. Stout. [Speaking through an interpreter.] I would be
happy to work with you and your staff on that.
    Senator Blumenthal. Thank you. Because I suspect that many
of my colleagues have constituents, as well, who may be
affected by this problem. And so your being here today is
especially meaningful.
    And I would like to thank all of the panel members. I think
this topic is critically important. And we may not have the
huge turnout on this panel, but I can assure you that this is a
topic that has--as we say around here, this topic has legs. And
your contribution has been very meaningful. Thank you.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you.
    Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY,
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Chairman Pryor and I teamed up back in 2010 to author the
Communications and Video Accessibility Act that President Obama
signed into law in October 2010. And while years ago the whole
question was wheelchair accessibility, in the 21st century it
is Web accessibility. And you need an on ramp to the Web in
order to make sure that everyone has access--the deaf, blind,
everyone.
    So, Mr. Stout, what unique challenges do deaf and hard-of-
hearing Americans face in this increasingly wireless world,
especially during emergencies?
    Mr. Stout. [Speaking through an interpreter.] It is
important that when we make a call for help, when we are
experiencing an emergency for ourselves or we are seeing
somebody else experience an emergency that we are trying to
provide help for, that we basically have the Life Alert
support.
    Senior citizens have Life Alert support, but deaf and hard-
of-hearing people don't necessarily benefit from that. You
know, if a senior citizen has an emergency, they can press a
button that they are wearing on a chain around their neck and
receive help. And the Life Alert company is going to call them
through the phone or through some other type of voice
technology.
    But our constituent population isn't able to communicate in
that way; they are not able to speak on the phone using spoken
English to the Life Alert responders. So if you were to give us
internal location identifiers on that type of emergency pager
system, like Life Alert technologies, then we would have that
kind of parity of access.
    So it is not just about making calls from a specific place
or location. We need to have the ability to call for emergency
services wherever we are in space, wherever we go, and to do it
in much the same way that any of you are doing that in your
lives.
    Thank you, Senator Markey.
    Senator Markey. May I ask, do you have any personal
experiences in your own life where personal location
identification technology could have been helpful to you?
    Mr. Stout. [Speaking through an interpreter.] Sure, I would
be happy to tell you about a situation that happened to me a
couple of years ago.
    For right now, my doctor has told me that I have some
coronary artery issues, and it is something that I am living
with. And a couple of years ago, I had an experience where I
was experiencing some issues with my breathing. Fortunately, I
was in a place where staff members were able to assist me and
take me to the hospital and to work out and coordinate the
emergency services.
    But today I work in an office by myself. I have no staff as
I did before, and so I am there by myself. And my office is in
a multilevel building in an urban area. And so I am concerned
about a future where if, God forbid, something like that should
happen to me again, that a call for help would have to come
from my pager, and it would need to be able to transmit the
location details in the technology.
    Thank you.
    Senator Markey. OK, great.
    So thank you, Mr. Chairman. This is a very important
hearing. And it is important for us to ensure that we have
cooperation that comes from all segments of the industry in
order to resolve this issue. And hopefully that can be
achieved. And I appreciate very much your conducting this
hearing.
    Senator Pryor. Thank you. And thank you for your work on
this and many other issues related to this. So thank you for
your great service and leadership on that.
    If I can, let me just say, with Mr. Stout, you know, in a
lot of these other questions, we are talking about carriers and
technology and government and systems, but we should never lose
sight that the consumer, the end user, is critically important
in making this whole thing work. After all, that is what it is
all about.
    So, Mr. Stout, thank you for your testimony today and for
your insights.
    But I do want to get back, if I can, to some of these
larger topics. And, specifically, I guess I will start with
you, Mr. Guttman-McCabe, if that is OK. I want to ask about
Phase II compliance data. And I know this is kind of technical,
but the panelists understand this very well.
    Do you think additional disclosure of Phase II compliance
data could be helpful to spur additional conversations about
location accuracy?
    Mr. Guttman-McCabe. Mr. Chairman, I know that the carriers
are constantly drive-testing their market, constantly having
thousands of calls in each individual county. I also know that
the reality is, anytime there is a problem at a PSAP or PSAP
level, the PSAPs can interact with those carriers and get the
data that they need. You know, we have reached out to CalNENA,
for example, to talk about trying to test some of their PSAP
markets to see if there are, in fact, problems.
    So I don't believe a formal process is necessary. I think
it is working now. I believe a formalized process is taking
resources away from exactly what we are trying to do here.
    And I think it is important to note, when you talk about
911, we don't have one thing going on right now. We are
simultaneously trying to deploy text-to-911, which is, you
know, taking a network component that wasn't designed for our
service and trying to rig that service in to help people from
the hard-of-hearing and the deaf community. And we are also
simultaneously trying to improve location accuracy as we are
working on a third element, which is next-generation 911, which
will give additional capabilities to the PSAP community--
schematics.
    So I don't believe a formalized process is necessary,
although I know that our carriers are willing to work with any
PSAP that believes it is having some concerns or issues.
    I think the CalNENA response was a perfect response. The
four carriers very quickly did testing, provided it formally.
And 2 weeks after that testing, the California Governor's
office submitted a letter to their PSAP saying, we are formally
removing the proposal that you don't rebid.
    And so, to me, that was a perfect example of how carriers
were ready, they were at the call. I do believe we wish CalNENA
had spoken to the carriers before they submitted the filing,
but we think the results of it showed that the carriers were
hitting their targets and hitting the requirements. And it
actually resulted in a positive movement, we think, by the
Governor's office and ultimately by CalNENA that they will
begin the process of rebidding again to actually get the more
granular data.
    Senator Pryor. OK.
    Mr. Forgety, did you have any comment on that?
    Mr. Forgety. So, Senator, I would say a couple of things.
    Mr. Guttman-McCabe is absolutely correct, we were very
pleased with the collaborative response of the carriers, their
willingness to work with us once our independent California
chapter had submitted the data that they supplied to the FCC.
And he is absolutely correct that they have since turned on
rebidding statewide, or they are moving to do that.
    I do want to be careful because of the fact that it has not
been resolved conclusively yet that the only thing going on in
California was a lack of rebidding. I don't think there is any
question that that certainly affected the quality and the
meaningfulness of the data that CalNENA submitted, but I think
it is a bit early to say that that was all that the data from
there showed us. So I think the important thing is that over
the long term we have a more meaningful process to have that
dialog.
    The public safety community is only just beginning to get
access to the kinds of location performance information that
carriers have available internally from platforms available
from Qualcomm and others to look at their performance data. And
I think it is going to be part of an ongoing conversation. It
is one we look forward to having.
    We certainly hope that the carriers continue to be
forthcoming with their granular data and continue to work with
us to make sure that we understand what the data from one side
or the other is actually saying.
    Senator Pryor. OK.
    Excuse me, I know we have been joined by Senator Ayotte
here. I will give her just a moment to collect her thoughts
since she just sat down.
    But let me, if I can, circle back around with you, Mr.
Guttman-McCabe. In your opening statement, you kind of
concluded with three points, and I want to take those, if I
can, just quickly, because I know we have other senators that
want to ask questions.
    But the third point was, I think, the point-of-sale
collection. And my question for you is, is that best done at
the retailer level, is that best done at the manufacturer
level, or by the service provider? And I know you mentioned
states. What is the ideal system there?
    Mr. Guttman-McCabe. At the retail level. Because of the
uniqueness of a prepaid consumer, it is best done at the retail
level. We have 17 states remaining where we would love to see
some action by those states.
    Senator Pryor. And let me just interrupt right there. At
the retail level, that means there is a one-time fee,
basically, at the cash register?
    Mr. Guttman-McCabe. Correct.
    Senator Pryor. Now, if I were to go to, you know, a Verizon
or to AT&T or a T-Mobile store, whichever one, am I paying
monthly as I pay for my service?
    Mr. Guttman-McCabe. As a postpaid, you are paying monthly.
You are paying through your bill.
    Senator Pryor. And so on prepaid, though, shouldn't they be
collecting it if the people, you know, add more to their
prepay, you know--I don't----
    Mr. Guttman-McCabe. Yes. I am turning back to----
    Senator Pryor. That is OK.
    Mr. Guttman-McCabe.--Mr. Carpenter. But, yes, as you
refresh, you would----
    Senator Pryor. Pay.
    Mr. Guttman-McCabe. Yes, correct.
    Senator Pryor. OK. That is what I think, too.
    OK. And you mentioned that all the fees--no fees should be
diverted, right----
    Mr. Guttman-McCabe. Correct.
    Senator Pryor.--into other things?
    Mr. Guttman-McCabe. Correct.
    Senator Pryor. And is that happening right now?
    Mr. Guttman-McCabe. It is. It is. And we are seeing, you
know, as many as a half dozen or more states each year are
raiding the funds. And that is having a negative impact on the
PSAP community. We think it is taking funds that were collected
from consumers specifically for the 911 purpose and being
redirected. And we have seen, you know, stories of what they
are being used for, everything from dry cleaning, to things
that make absolutely no sense, to just closing budgetary
shortfalls.
    And there are a number of states who have been guilty of it
repeatedly over the last 3 or 4 or 5 years. And we would love,
you know, at least a bully pulpit from Congress and even using
some of the resources at your disposal to condition funding on
not raiding those accounts.
    It doesn't make any sense if there is an expectation from a
consumer that you are paying for 911 funds out of their hard-
earned money and it is being redirected to close budget
shortfalls or other things that have nothing to do with
emergency services.
    Senator Pryor. Right.
    And you also mention limits on liability. And I know we
have already had some discussion; you have had a couple of
questions about that. But let me ask this: Currently, in the
various states--this is a state-by-state issue----
    Mr. Guttman-McCabe. Correct.
    Senator Pryor.--are your members being sued currently in
the various states?
    Mr. Guttman-McCabe. We have had suits over time. And part
of the concern is some of the statutes, when they were written,
were written for just a landline world, and so the language
that was used includes things like ``landline'' or phone'' or
``connected'' or ``wired.'' And as you begin to use an IP-based
or wireless service, particularly as you move to next-
generation 911, there is a greater concern that that service
would fall outside of the scope of protection.
    And, some of our members have different thoughts about how
to interpret those states. But there certainly is vulnerability
in a fair number of states. I wouldn't want to give a number on
the record, but it is sufficient enough that there is concern.
    Senator Pryor. OK. Well, as we go forward, we will continue
to talk with you about that.
    Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman. I appreciate it.
    I want to thank the witnesses for being here.
    It strikes me that clearly there are concerns that exist
with location capabilities on 911 calls originating from
wireless devices. That is why we are all here today.
    As we continue to look at this issue as a committee and how
to best put in place policies and technologies that protect
those in need during times of emergency and crisis. There is
one thing that I would hope--and that is, that we always get
the best results when we work together in a collaborative
effort. There is a multistakeholder effort where we are all
working together to get the best results for consumers.
    And I know that we all want the best 911 system to function
and make sure when someone picks up to make a call, he or she
is going to get an emergency responder on the other end. We
know that lives are at stake. So everyone at this table and the
organizations that you represent, the best thing will be when
we all work together and we find a way to work out some of the
differences we have here. That is my hope for today.
    There has been a lot of discussion about calls originating
from densely populated areas and more specifically issues with
calls originating from indoors. But New Hampshire,
geographically, has many rural areas, and just like other
areas, there is a high percentage of those who are making
emergency phone calls from wireless devices.
    Can you talk about the location challenges facing rural
areas? And also as wireless carriers update their location
accuracy technology, will public safety answering points make
adjustments to the technology that they use? And do these
answering points have the ability to keep up with what the
wireless carriers are offering?
    Mr. Forgety. I will be happy to take that, Senator Ayotte.
    I think, to your first point, I come from a very rural part
of east Tennessee. My family and my friends are farmers and
sportsmen. And the reality is, in rural parts of the country,
people are not just clustered around the towns and the
highways. They are out in the woods, they are out in the
fields. There is a lot going on, sort of, beyond the boundary
of civilization.
    Those are very challenging areas for public safety for a
couple of reasons. Accessibility physically is a big one. But
in terms of location accuracy, we tend to think of broad, open
spaces as easy to deal with, because you are out, you are under
an open sky, you can get 12 GPS satellites, plus differential
corrections, plus all these other wonderful things that make
positioning much better, theoretically.
    But those are precisely the situations when Phase II is the
most important, when that latitude and longitude is the most
important. Typically, the reason for that is because you are
not around physically addressed structures or prominent
landmarks that you can use for positioning.
    So a hunter may be able to tell you, you know what, I drove
in off of Route 50, parked the truck under a big oak tree by a
stone wall, and I hiked into my tree stand, which is about
three-quarters of a mile to the east. That is not exactly
precise location data. So those are the circumstances where,
you know, we really have to have that Phase II latitude and
longitude capability in place.
    To your second point, there are, to some extent, changes
that PSAPs have to make in order to keep up with newer location
technologies. I am happy to say that the existing database
processes that we have in place do have provisions in the
protocols and in the fields to deal with other location
elements that we don't currently have access to because the
underlying positioning technology can't report them, so things
like vertical location.
    The good news is that we are already seeing deployments of
Next Generation 911, which also makes it much easier from the
standpoint of public safety to accept an extensible set of
location parameters, including things like barometric altitude
and room numbers and suite numbers and so forth.
    Senator Ayotte. Does anyone want to add to that?
    Mr. Burroughs. Yes, sure. So I think you raise a good point
about the ability for the public safety to be downstream and
accept the advances of technology. In the rural case, to me,
that is textbook Phase II A-GPS. Certainly, if the PSAPs aren't
rebidding or somehow the position----
    Senator Ayotte. I know the experience, having been an
attorney general, of making sure that all of the various law
enforcement agencies actually had devices that could
communicate with each other on the same radio frequency, took a
long time in a state like mine and it wasn't unique to New
Hampshire.
    So when we think about the new technology in this context,
I think there are similar challenges.
    Mr. Burroughs. Yes. And I think the CalNENA report is an
example of how we are not even current with our current best
practices. All right? So the Phase II fixes were getting lost
somewhere along the way.
    So as we enrich the quality of the Phase II fixes and start
to provide additional identifiers that might be indoor-
specific, 6,000 PSAPs have to be able to sync that, and that is
a challenge.
    Senator Ayotte. I think one of the challenges we face as a
committee, as well, is any legislation that we put forward,
will not account for the fact that the technology is always
changing, and the anticipation of those changes. We didn't want
to create more problems and hamstring you just because we
didn't know the next new thing that was coming.
    I thank all of you for being here. To make sure when
someone makes a 911 call, there is someone on the end of that
line, and he or she is going to get the response needed to save
their life or the life of someone that they know, is a very
important topic. So thank you.
    Senator Pryor. Thank you, Senator.
    Let me just follow up with a couple of short questions. And
I will probably direct these to Mr. Burroughs.
    Did you or your company participate in the FCC workshop
recently on this issue?
    Mr. Burroughs. Yes, I did, myself, personally.
    Senator Pryor. And was that helpful? Was that a
constructive process?
    Mr. Burroughs. Yes, I found it very helpful and very
constructive.
    Senator Pryor. OK, great.
    Let me ask about 4G LTE. As that, you know, continues to
roll out around the country and as developments happen there,
does that help solve the accuracy problem indoors and outdoors
or not?
    Mr. Burroughs. Yes, per my testimony, we believe it is a
very compelling technology for indoor.
    There is not an outdoor accuracy location issue, as far as
I am aware. A-GPS works wonderfully.
    Senator Pryor. Right.
    Mr. Burroughs. A-GPS even works indoors, is a point I would
like to stress.
    Senator Pryor. Right. In your testimony, you went through a
little riff on that, and I want to make sure I was following
that.
    Mr. Burroughs. Yes.
    Senator Pryor. So you think just, kind of, the nature of 4G
LTE helps this issue considerably indoors?
    Mr. Burroughs. Yes. So what you saw in the CSRIC report was
the 3G terrestrial cellular base station range and technology--
--
    Senator Pryor. Right, right.
    Mr. Burroughs. And as you go from 3G to 4G, you get a lot
of inherent benefits of 4G--higher bandwidth, the actual
efforts of the standards body to set a bar above 3G
performance, so 4G. The 3GPP standards body just added a bunch
of enhancements to the base stations to outperform 3G, and we
are already seeing the fruits of that labor.
    But to CTIA's point and our company's point, it needs to be
properly vetted through a CSRIC process. It needs to be a
multivendor environment for it to be successful. You are seeing
some single-vendor technology displays, but that ultimately
will falter due to a lack of a healthy ecosystem. So if you
can't procure infrastructure or handsets or chipsets or
software from a healthy ecosystem, I think it is doomed to
fail.
    Senator Pryor. I think the outdoor location issue, you
know, may be more related to, you know, heavy forestation or
mountains, things like that. Do you think that 4G helps that,
as well?
    Mr. Burroughs. Well, so 4G is a function of the base
stations. So if you can make a call, then you have 4G coverage.
    Senator Pryor. Right.
    Mr. Burroughs. So that is step one. If that is physically
the only base station around you, then the technology I
discussed wouldn't help.
    Senator Pryor. Right.
    Mr. Burroughs. But the technology, as it is designed, has a
hearability reach, a range, that is greater than even for
cellular coverage. So you will pick up additional base stations
that aren't used for cellular coverage that you couldn't make a
voice call on. So it could potentially contribute.
    There are also other means to augment the satellite system
outdoors, as well, right? There are multiple constellations and
things like that.
    Senator Pryor. OK.
    Well, listen, this hearing has been great. And what we are
going to do is we are going to keep the record open for 2
weeks. And what that means is we are going to allow any of our
members who either couldn't stay or, you know, didn't have time
to ask all their questions or couldn't make it today, we will
let them submit to us questions. We will get those to you. We
would love a prompt response on those, if possible. But we will
keep it open for 2 weeks, so for all the staff to know that.
    And also we just wanted to, more than anything, just say
thank you all for being here. I know it took a lot of time to
get here and participate in this. And all of your testimony has
been very, very helpful.
    And, with that, what I am going to do is conclude the
hearing and, like I said, leave the record open for a couple of
weeks.
    Thank you very much.
    [Whereupon, at 11:59 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Amy Klobuchar, U.S. Senator from Minnesota
    Mr. Chairman, thank you for holding this important hearing to
discuss the importance of improving 911 location accuracy.
    As Co-Chair of the Next Generation 911 Caucus, I believe that new
technologies can be enormously helpful to our first responders,
provided they are compatible with existing systems. Cell phones are the
most obvious example of this. The FCC estimates that 70 percent of 911
calls are now made from cell phones. But because these devices are by
definition mobile, it's not always easy for call centers to gauge their
exact location.
    That's a big problem, especially if we're talking about a car crash
where the caller doesn't know where they are or an emergency in a
building where the caller cannot describe an exact location or which
floor they're on. In either scenario, 911 call centers should be able
to pinpoint the callers' location.
    To address this issue, the FCC has started requiring wireless
carriers to provide more precise location information and has set
benchmarks to make sure those goals are met. I know that there are
technologies being tested to improve accuracy for mobile 911 calls and
I hope the FCC will examine them carefully and make sure they are the
right solutions to protect the public.
    But we will still have work to do in ensuring our emergency
response systems can reliably communicate with cell phones and next
generation innovations. I was pleased to read FCC Commissioner Jessica
Rosenworcel's editorial in ``The Hill'' where she called on the FCC to
update its rules requiring location accuracy standards for 911 calls
made from wireless phones indoors. I look forward to the Commission
taking action to protect the public and ensure that first responders
are able to get the information they need to get to any scene in as
little time as possible and save lives.
                                 ______

                                          Direct Technology
                                    Roseville, CA, January 27, 2014

Senate Subcommittee on Communications, Technology, and the Internet
Washington, DC.

Re: For submission to the Record of Senate Subcommittee on
            Communications, Technology, and the Internet held on
            Thursday, January 16, 2014, at 10:30 a.m. titled,
            ``Locating 911 Callers in a Wireless World.''

Dear Senator, Senate Subcommittee on Communications, Technology, and
the Internet:

    My name is Fred Michanie, and I am the President and Founder of
Direct Technology, a Delaware corporation with headquarters in
Roseville, California, and offices in Bellevue Washington.
    I have been involved in Public Safety since 1997, and I currently
participate in multiple industry standard setting bodies including
CSRIC IV, iCert and the National Emergency Number Association (NENA),
where I hold a board member seat in the California chapter--CalNENA.
    Back in 1997, when I was first introduced to the industry, I
remember my dismay when I realized that one of the most critical
services provided to the citizens of this great nation had no platform
for reporting and accountability at either Statewide or National
levels. More disturbing was and continues to be the fact that major
Federal agencies such as the FCC utilizes self-reporting practices from
the major telecommunication companies to validate compliance with
regulations and 911 industry standards.
    In response to this apparent void in reporting and accountability,
Direct Technology developed a Public Safety Intelligence and Reporting
platform named ECaTS--Emergency Call Tracking System. The goal of this
product was to collect, analyze and report against all 911 data within
large Public Safety jurisdictions and utilize the extrapolated
intelligence to assist State and County managers to implement efficient
and cost effective 911 practices. Another goal of this solution was to
empower those agencies responsible for making 911 decisions and
enforcing regulations with the data necessary to ensure compliance,
analyze the impact of new technologies to the 911 infrastructure. The
911 industry has embraced this concept and the product is currently
installed at more than 1200 Public Safety Answering Points (PSAPs)
across the United States. We are currently the only organization in the
country with real, unbiased information that illustrates the health and
issues in the 911 industry.
    After listening to the 911 Wireless Call Location Accuracy, I was
reminded of the fragile state of this most critical industry. Wireless
and Telecommunication companies are self-reporting on items as pivotal
as the presentation of wireless call and caller information both when
the call arrives at the PSAP and for the duration of the call itself.
The FCC has established multiple regulations that deal with wireless
call routing, call location, subscriber information, but it does not
have the independent and unbiased tools required to ensure and enforce
their compliance. It was apparent during the hearing that the Committee
could also use such information and associated intelligence to
impartially and objectively understand the real impact that failure to
comply with FCC regulations could have on the citizens of the United
States. This is particularly important for citizens with disabilities
whose very lives may be on the line should technology fail to deliver
accurate and reliable location information to the call taker processing
the emergency call.
    Senators, with the advent of Next Generation (NextGen) 911 to
support rich media and text-based communications between citizens and
the Public Safety Answering Points, it is now more critical than ever
that a ubiquitous, impartial and objective National Public Safety
Intelligence and Reporting System be implemented. Without such a
system, it is truly impossible to understand the health of our Public
Safety Industry, the impact of companies failing to comply with
regulatory statutes or the unforeseen and unknown risks associated with
newer technologies that such as NextGen 911.
    Please feel free to contact me directly at 916-501-9036 or e-mail
fmichanie
@directtechnology.com. Thank you and I look forward to speaking with
you.
            Respectfully,
                                          Fred J. Michanie,
                                             President and Founder,
                                                Direct Technology, Inc.
                                 ______

    Response to Written Questions Submitted by Hon. Bill Nelson to
                               Gigi Smith
    Question 1. I have been a strong supporter of the move to Next
Generation (``Next Gen'') 911 services. In my NET 911 Act, we made it
the duty of IP-enabled voice providers to offer 911 services. Since
then, we have also made progress in a number of other areas--including
incentives to get states to become ``early adopters'' of Next Gen 911
systems.
    I think the promise of Next Gen 911 systems is great, especially in
terms of their resiliency during natural disasters. I am concerned,
however, about the level of coordination on the Next Gen 911 effort.
    We currently have the 911 coordination office with NTIA and NHTSA.
Last year, the FCC provided to this Committee its statutorily required
recommendations for creating a framework for the transition to Next Gen
911. In addition, I know the FCC is working on several other Next Gen
activities. Do members of the panel believe these efforts are working
well--or is further centralization or coordination of this effort
necessary?
    Answer. Senator, thank you for your leadership on the NET 911 Act
and for your commitment to improving 9-1-1. APCO believes that a
challenge facing stakeholders in NG9-1-1 deployment is a lack of
coordination at the national level. Accordingly, there should be a
multi-federal agency program to guide NG9-1-1 deployment, consisting of
the Federal Communications Commission (FCC), the National Highway
Traffic Safety Administration (NHTSA), the National Telecommunications
& Information Administration (NTIA), and the Department of Homeland
Security (DHS) that leverages and combines each individual agency's
expertise. This program should be led by the FCC and actively involve
the other Federal agencies. The body should be given the responsibility
of working with the public safety community to create a standard,
national framework that PSAPs can follow to ensure secure, effective,
and efficient NG9-1-1 deployments.
    Additionally, APCO appreciates the importance that Congress and the
Commission have placed on ensuring timely and effective deployment of
NG9-1-1 services. NG9-1-1 technology will lead to real advancements in
emergency response, saving lives, securing property, and protecting the
homeland. At the same time, NG9-1-1 deployment will require careful
study and coordination to ensure success. APCO is pleased to contribute
to this effort in any way it can.

    Question 2. I am pleased to see the progress that has been made to
date between public safety and the four nationwide wireless carriers to
provide ``text to 911'' services to consumers later this year. The
ability to text to 911 is particularly important for individuals who
are deaf or hard of hearing.
    In advance of the roll-out of ``text to 911,'' however, I want to
be sure all stakeholders are carefully considering special location
information issues associated with such a service. For example, if
someone is sending a text on a device that is using Wi-Fi rather than a
carrier network, will that text get to the correct 911 operator?
    Answer. APCO is pleased to have played a leading role in the
development of an agreement with the Nation's four largest wireless
carriers on a voluntary commitment to offer text-to-9-1-1 services.
Text-to-9-1-1 capability will substantially improve the ability of
individuals to seek emergency assistance when a voice call is not
feasible. It will also be invaluable for individuals with speech or
hearing disabilities, in rare situations where a voice call to 9-1-1
might be dangerous (e.g., a hostage situation), or when voice calls are
being blocked due to unusual network congestion.
    Identifying the location of the person texting to 9-1-1 is
essential to proper routing and efficient and rapid emergency response.
APCO believes that the routing of texts based at least on cell sector
location is currently feasible. Further, accurate location information
for each 9-1-1 text should be provided to the PSAP. Ideally, that
location information should be at least as accurate as the Phase II
requirements for wireless voice calls to 9-1-1.
    We are pleased that the FCC has recently sought comment regarding
text to 9-1-1 on issues such as location and use of Wi-Fi networks, and
we look forward to weighing in during the public comment period.

    Question 3. After hearing the testimony today, I am somewhat
worried about the ability of first responders to find 911 callers in
large, multi-story buildings. This is obviously a very serious issue.
How close are we to solving this issue--which is essentially getting
phones to send the pinpoint ``vertical'' or ``height'' coordinates to
the public safety answering points? Is there anything Congress can do
to expedite deployment?
    Answer. APCO has frequently urged the Commission, wireless
carriers, and location technology providers that improvements must be
made in location accuracy for 9-1-1 calls made from indoor locations.
And, as I mentioned during my testimony, growing reliance on wireless
devices for making 9-1-1 calls from indoor locations is limiting, and
will continue to limit, the location accuracy for those calls. Further,
precise location is especially important for indoor calls, including a
vertical element, as emergency responders are often unable to make
visual contact upon arriving at the approximate address (e.g., a call
for medical assistance from inside a large apartment or office
building/complex, as opposed to an outdoor emergency such as a vehicle
accident). APCO would certainly support revised FCC rules that require
significant improvements in indoor location accuracy over a period of a
few years (and ultimately including a vertical or z-axis component).
    We are pleased that the FCC has recently sought comment on a number
of wireless 9-1-1 location issues, including for calls placed from
indoors. We look forward to participating in the public comment period.

    Question 4. In the written testimony, there is a fairly robust
discussion of both the network-based and handset-based (GPS) technology
currently used to locate people on wireless devices who call 911--and
their accuracy rates. Are there other technologies on the horizon that
may prove even more effective in locating people calling 911?
    Answer. While the technology industry may be best positioned to
respond to this question, APCO looks forward to working with all
stakeholders, including our partners in industry and the public safety
community, location technology vendors, the FCC, and this subcommittee
to implement the best and most effective technologies for wireless
location accuracy.

    Question 4a. If so, when should we expect to start seeing those
technologies show up in consumer devices?
    Answer. We would respectfully defer to other stakeholders with
expertise in wireless location technology and the consumer marketplace.
                                 ______

   Response to Written Questions Submitted by Hon. Amy Klobuchar to
                               Gigi Smith
    Question 1. The wireless industry has suggested that the solution
to this problem is for 911 call centers to request updated location
information from the providers or ``rebid'' the 911 calls in order to
get that information. Can rebidding alone completely solve the problem
of untimely or inaccurate location information being delivered to the
911 call centers?
    Answer. Because the best location data may not arrive with the
initial wireless 9-1-1 call, a common practice for call-takers is to
solicit updated location data from the wireless carrier at some point
after initiation of the call, which is known as a rebid. Rebidding for
this information often affords more accurate, Phase II location
information, which provides the PSAP call-taker with the latitude and
longitude of the wireless caller. The Phase II information provided to
the PSAP must meet FCC accuracy standards, ranging from 50 to 300
meters, depending on the type of technology used.
    However, Phase II information sometimes lacks sufficient accuracy
to ensure a rapid and efficient emergency response. This is especially
the case for calls from indoor locations, where accuracy is compromised
both by the technical limitations of GPS, and the lack of vertical
information (often referred to as the ``z-axis'') for tall buildings.
Yet, location is especially important for indoor calls, as emergency
responders are often unable to make visual contact upon arriving at the
approximate address.
    Additionally, delays associated with a telecommunicator or
dispatcher obtaining an actionable location prolongs the time it takes
for first responders to reach an individual in need of help. The
rebidding process can add up to 30 seconds to the call-taking/
dispatching process, potentially delaying emergency response to the
correct location. For indoor locations, even a rebid may not provide
sufficient information for responders to locate the caller quickly in a
building (or identify the correct building in a densely developed
area).
    We are pleased to see that the FCC has recently sought input on
ways to improve wireless location accuracy, including for indoor calls,
as well as examining ways to shorten the ``time to fix'' interval so
that accurate information is delivered more quickly. We look forward to
participating during the public comment period.

    Question 1a. How long does a rebid take for a Public Safety Access
Point (PSAP)?
    Answer. As an American National Standards Institute (ANSI)
certified standards development organization, APCO International has
developed an ANSI standard (APCO ANS 1.103.1-2008, Effective Practices
380741-45) along with training protocols and best practices for
addressing the rationale and methods for rebidding wireless 9-1-1
calls. APCO recommends that PSAPs rebid the Phase II location data to
ensure the most accurate information is available.
    Because policies on rebidding vary from agency to agency, I can
only comment on my experience as the Police Operations Manager for the
Salt Lake Valley Emergency Communications Center in West Valley City,
Utah. At my PSAP, the phone system we use automatically rebids every 15
seconds. Further, because even 15 seconds in some cases can be too long
to wait, call takers can also manually rebid the location information
at shorter intervals. However, the rebidding process can add up to 30
seconds to the call-taking/dispatching process, which can potentially
delay emergency response to the correct location.

    Question 1b. What proportion of 911 calls will not be located
accurately by rebidding?
    Answer. APCO does not have specific data on the proportion of 9-1-1
calls that are not located accurately by rebidding. However, in my
experience, the proportion of calls for which rebidding will not yield
sufficient enough accuracy for emergency response varies from agency to
agency, and indeed, even from call-taker to call-taker, due to a number
of factors. These include the topography of the region the PSAP covers,
and the technology used to determine the location of the wireless
caller.
    The predominant location technology for most wireless 9-1-1 calls,
is ``Assisted GPS'' or ``A-GPS,'' and has been generally effective in
outdoor locations. However, A-GPS relies in large part on having direct
line-of-sight for GPS signals, which do not penetrate buildings well in
most cases. Regardless of rebidding practices, wireless 9-1-1 calls
from an indoor location will thus generally provide significantly less
accurate location information than a call from an outdoor location.
Further, even outdoors, natural and man-made features, such as ``urban
canyons,'' mountainous terrain, and heavy forestation, can negatively
impact location accuracy determined with A-GPS.

    Question 1c. Would PSAPs need to upgrade their technologies in
order to receive vertical as well as horizontal spatial location?
    Answer. Multiple PSAPs in the United States currently have the
ability to receive and work with vertical or Z axis location
information. Further, some systems already have the ability to utilize
Z axis as part of the system feature package. However, many PSAPs will
need to upgrade their systems to process Z axis information. Some will
have Z features incorporated into their software in the near term as a
result of normal upgrading or upgrading to Next Generation capability.
The remaining PSAPs will need to consider upgrading to receive this
capability.
                                 ______

    Response to Written Questions Submitted by Hon. Bill Nelson to
                            Claude L. Stout
    Question 1. I have been a strong supporter of the move to Next
Generation (``Next Gen'') 911 services. In my NET 911 Act, we made it
the duty of IP-enabled voice providers to offer 911 services. Since
then, we have also made progress in a number of other areas--including
incentives to get states to become ``early adopters'' of Next Gen 911
systems.
    I think the promise of Next Gen 911 systems is great, especially in
terms of their resiliency during natural disasters. I am concerned,
however, about the level of coordination on the Next Gen 911 effort.
    We currently have the 911 coordination office with NTIA and NHTSA.
Last year, the FCC provided to this Committee its statutorily required
recommendations for creating a framework for the transition to Next Gen
911. In addition, I know the FCC is working on several other Next Gen
activities. Do members of the panel believe these efforts are working
well--or is further centralization or coordination of this effort
necessary?
    Answer. I cannot say for sure on whether the efforts are working
well with the FCC on related Next Gen activities. I would ask the FCC
directly about them, ask for an update on these activities from FCC.
Please know FCC has done an incredible job addressing our disability
access needs such as TV captioning, relay services, IP captioning,
broadband access, and emergency communications. Ask them for an update,
along with some coverage on disability access.

    Question 2. I am pleased to see the progress that has been made to
date between public safety and the four nationwide wireless carriers to
provide ``text to 911'' services to consumers later this year. The
ability to text to 911 is particularly important for individuals who
are deaf or hard of hearing.
    In advance of the roll-out of ``text to 911,'' however, I want to
be sure all stakeholders are carefully considering special location
information issues associated with such a service. For example, if
someone is sending a text on a device that is using Wi-Fi rather than a
carrier network, will that text get to the correct 911 operator?
    Answer. I would ask the FCC directly about it, or all the four
major wireless carriers.

    Question 3. After hearing the testimony today, I am somewhat
worried about the ability of first responders to find 911 callers in
large, multi-story buildings. This is obviously a very serious issue.
How close are we to solving this issue--which is essentially getting
phones to send the pinpoint ``vertical'' or ``height'' coordinates to
the public safety answering points? Is there anything Congress can do
to expedite deployment?
    Answer. The FCC has distributed a FNPRM on this topic. Comments
will be due around the third week of April, and the reply comments
around the third week of May. I would ask the FCC for an update.

    Question 4. In the written testimony, there is a fairly robust
discussion of both the network-based and handset-based (GPS) technology
currently used to locate people on wireless devices who call 911--and
their accuracy rates. Are there other technologies on the horizon that
may prove even more effective in locating people calling 911?
    Answer. I cannot answer this one.

    Question 4a. If so, when should we expect to start seeing those
technologies show up in consumer devices?
    Answer. I cannot answer this one, but industry can give you some
idea approximately when this will become a reality.
                                 ______

   Response to Written Questions Submitted by Hon. Barbara Boxer to
                       Christopher Guttman-McCabe
    Question 1. Data from the Centers for Disease Control show that
35.8 percent of Americans rely solely on a wireless phone, and, for
Americans living below the poverty line, that percentage rises to just
more than half--52 percent. You are also aware of the LifeLine program,
which more than 1.2 million Californians rely on to stay in touch with
their families, their jobs, and, most importantly, emergency services.
LifeLine participants are able to choose subsidized service from either
traditional wireline or wireless carriers, not both.
    California LifeLine participants are serviced by a broad array of
carriers, from national names like Verizon and AT&T to smaller
operations like Winterhaven and Siskiyou Telephone Companies. Do we
know the full range of technologies smaller carriers employ to provide
Phase II information to emergency call centers and is there reason to
believe that they are improving at the same pace as the larger
carriers?
    Answer. As you note, Americans increasingly rely on mobile devices
for their communications needs, including making calls in times of
emergency. And when they do, consumers should expect wireless services
and handsets that meet the FCC's E-911 rules regardless of who their
carrier is--large or small, facilities-based or MVNO. Typically,
smaller providers employ similar E-911 Phase II location accuracy
technologies as larger carriers. While larger carriers may be more
directly involved in exploring and testing new location accuracy
technologies with vendors, public safety and policymakers, CTIA is not
aware of any major discrepancies in terms of deploying location
accuracy technologies among carriers.

    Question 2. As part of the transition from a wired and switch-
operated telephone system to a next generation Internet protocol
system, carriers and emergency call centers are being asked to update
their technical capabilities to ensure that customers can get in touch
with emergency service providers via SMS texting and data services. Do
you expect GPS-based wireless 911 location systems will be fully
compatible with Next Generation 911?
    Answer. The Next Generation 911 (``NG-911'') transition offers
opportunities to improve on our current wireless 9-1-1 location
accuracy capabilities, including GPS. Just as NG-911 will provide
flexibility and opportunities for PSAPs to take advantage of various
technologies, any location accuracy rules or requirements for wireless
providers should be technology neutral and based on non-proprietary
solutions. A technology neutral and non-proprietary framework will
ensure that wireless providers can take advantage of innovative and
competitive technological solutions that are commercially available and
reasonably deployable in a timely and ubiquitous manner to improve our
current location accuracy capabilities. CTIA and our member companies
are actively engaged with the public safety community and policymakers
to make the promise of NG-911 a reality. As NG-911 develops, CTIA
expects stakeholders to pursue location information capabilities that
account for existing 9-1-1 technologies.
    It should be noted that the impending availability of SMS-based
text-to-911 service is an interim solution to deliver text messages to
PSAPs before the availability of NG-911. SMS-based text-to-911 service
does not support all of the capabilities contemplated for NG-911
because, as an interim solution, text-to-911 is intended to be deployed
quickly based on existing capabilities for SMS. At present, the FCC has
tasked the Communications Security, Reliability and Interoperability
Council (CSRIC) IV, an advisory committee of industry, public safety,
government and technology vendor representatives, with developing a
report by June 2014 on the technical feasibility of including enhanced
location information in text messages sent to PSAPs. In addition, the
FCC's recent Second Further Notice of Proposed Rulemaking on
Facilitating the Deployment of Text-to-911 noted the ``long-term
objective is for text messaging services, whether from CMRS carriers or
interconnected text providers, to provide for Phase II equivalent
location information with text-to-911 calls.''
                                 ______

    Response to Written Questions Submitted by Hon. Bill Nelson to
                       Chrisopher Guttman-McCabe
    Question 1. I have been a strong supporter of the move to Next
Generation (``Next Gen'') 911 services. In my NET 911 Act, we made it
the duty of IP-enabled voice providers to offer 911 services. Since
then, we have also made progress in a number of other areas--including
incentives to get states to become ``early adopters'' of Next Gen 911
systems.
    I think the promise of Next Gen 911 systems is great, especially in
terms of their resiliency during natural disasters. I am concerned,
however, about the level of coordination on the Next Gen 911 effort.
    We currently have the 911 coordination office with NTIA and NHTSA.
Last year, the FCC provided to this Committee its statutorily required
recommendations for creating a framework for the transition to Next Gen
911. In addition, I know the FCC is working on several other Next Gen
activities. Do members of the panel believe these efforts are working
well--or is further centralization or coordination of this effort
necessary?
    Answer. CTIA is deeply interested in proper governmental
coordination of NG-911 and notes that the issues involved extend beyond
the Federal government to states and localities as well. First and
foremost, there must be clearly defined roles and responsibilities for
the Federal agencies involved in NG-911. NTIA and NHTSA have their
coordination functions, and CTIA believes for NG-911 to have a
successful legal and regulatory framework, the FCC should lay out the
framework for NG-911 implementation. Further, states and localities are
generally best suited to manage the day-to-day elements of NG-911
deployment and operation for PSAPs and to monitor PSAP capabilities.

    Question 2. I am pleased to see the progress that has been made to
date between public safety and the four nationwide wireless carriers to
provide ``text to 911'' services to consumers later this year. The
ability to text to 911 is particularly important for individuals who
are deaf or hard of hearing.
    In advance of the roll-out of ``text to 911,'' however, I want to
be sure all stakeholders are carefully considering special location
information issues associated with such a service. For example, if
someone is sending a text on a device that is using Wi-Fi rather than a
carrier network, will that text get to the correct 911 operator?
    Answer. The four national carriers and public safety announced an
agreement to provide text-to-911 service by May 15, 2014 to PSAPs that
request to receive text-to-911 service, and the FCC recently proposed
that other CMRS providers offer text-to-911 service by December 31,
2014. The FCC acknowledged there are ``technical issues that arise from
the routing of texts from Wi-Fi locations,'' and as a result the
initial phase of text-to-911 implementation does not include
interconnected over-the-top (OTT) texting. Nonetheless, the NPRM
explores OTT text-to-911 issues in depth, and further study is underway
to resolve the OTT issues. In the meantime, in May 2013 the FCC
required all CMRS providers and interconnected text providers to
provide a ``bounce back'' message to any consumer attempting to send a
text to 911 to provide notice that the consumer should make a voice
call to 9-1-1 when text-to-911 service is unavailable.

    Question 3. After hearing the testimony today, I am somewhat
worried about the ability of first responders to find 911 callers in
large, multi-story buildings. This is obviously a very serious issue.
How close are we to solving this issue--which is essentially getting
phones to send the pinpoint ``vertical'' or ``height'' coordinates to
the public safety answering points? Is there anything Congress can do
to expedite deployment?
    Answer. A working group of the FCC's advisory committee, the
Communications Security, Reliability and Interoperability Council
(CSRIC), issued a report one year ago this month on the results of a
test bed that examined indoor location technologies, including the
ability to pinpoint vertical coordinates inside buildings. Seven
location technology vendors expressed interest in the test bed, but
only three participated--and only one ``emerging technology'' was
identified that addressed the potential for indoor vertical location
accuracy. More recently, the FCC issued an indoor location accuracy
NPRM proposing vertical location accuracy requirements, and CTIA looks
forward to examining the record closely to assess the status of
technology. Any such claims require independent verification, like the
CSRIC test bed. Technological advancements are the first step, of
course, followed by standards development, incorporation into network
and user device equipment, and then implementation. CTIA looks forward
to additional data on capabilities of potential vertical location
solutions to offer even more aid to first responders.

    Question 4. In the written testimony, there is a fairly robust
discussion of both the network-based and handset-based (GPS) technology
currently used to locate people on wireless devices who call 911--and
their accuracy rates. Are there other technologies on the horizon that
may prove even more effective in locating people calling 911? If so,
when should we expect to start seeing those technologies show up in
consumer devices?
    Answer. In addition to the current network-based and handset-based
(GPS) location accuracy technologies that CMRS providers have deployed
to provide meaningful location information, other location solutions
are under close examination. These include, for example, the
technologies that participated in the CSRIC test bed--a beacon
technology, RF fingerprinting, and an AGPS/AFLT location solution.
Vendors of other technologies expressed interest in the test bed but
did not participate, including U-TDOA Positioning, DAS Proximity-based
Positioning, AGNSS/WiFi/MEMS (Microelectromechanical Systems) Sensor
Hybrid Positioning, and LEO Satellite-based Positioning. Still other
technologies could be examined in the future, including WiFi-based
Location, AGNSS (A-GPS and A-GLONASS, and possibly other Satellite
constellations), and OTDOA with LTE. CSRIC IV is in the process of
setting forth the framework for a permanent test bed that will produce
independent, verified data on new location technologies. CTIA looks
forward to developments in this field and the ability to examine
verified data regarding what new technology solutions can do to advance
location accuracy.
                                 ______

    Response to Written Questions Submitted by Hon. Bill Nelson to
                             Kirk Burroughs
    Question 1. I have been a strong supporter of the move to Next
Generation (``Next Gen'') 911 services. In my NET 911 Act, we made it
the duty of IP-enabled voice providers to offer 911 services. Since
then, we have also made progress in a number of other areas--including
incentives to get states to become ``early adopters'' of Next Gen 911
systems.
    I think the promise of Next Gen 911 systems is great, especially in
terms of their resiliency during natural disasters. I am concerned,
however, about the level of coordination on the Next Gen 911 effort.
    We currently have the 911 coordination office with NTIA and NHTSA.
Last year, the FCC provided to this Committee its statutorily required
recommendations for creating a framework for the transition to Next Gen
911. In addition, I know the FCC is working on several other Next Gen
activities. Do members of the panel believe these efforts are working
well--or is further centralization or coordination of this effort
necessary?
    Answer. While Next Gen may offer a potential for greater resiliency
during disasters, the enhanced ability of Emergency Services IP
networks or ESInets to dynamically route emergency calls when
particular PSAPs are overwhelmed or themselves affected by a disaster
may take some time and coordinated work among all stakeholders to
ensure that Next Gen services are as resilient as legacy networks.
    Qualcomm believes that substantial progress is being made by
carriers and their vendors with rollout of NG911. However, additional
effort and resources are needed to make ubiquitous Next Gen 911
services a reality, especially in the PSAP and ESInet sides. Roll-outs
are happening regionally with some areas making excellent progress
while others lag behind. This disparity tends to exacerbate end-user
confusion as to which services are available and better coordination
would help limit this confusion.

    Question 2. I am pleased to see the progress that has been made to
date between public safety and the four nationwide wireless carriers to
provide ``text to 911'' services to consumers later this year. The
ability to text to 911 is particularly important for individuals who
are deaf or hard of hearing.
    In advance of the roll-out of ``text to 911,'' however, I want to
be sure all stakeholders are carefully considering special location
information issues associated with such a service. For example, if
someone is sending a text on a device that is using Wi-Fi rather than a
carrier network, will that text get to the correct 911 operator?
    Answer. If the device is using Wi-Fi as a stand-alone Internet
access (and not as part of a carrier service), then it is an ``over-
the-top'' service and will not be able to send an SMS text that is part
of the current interim (pre-Next Gen) text-to-911 service. The FCC is
currently seeking comment on a means of requiring OTT texting services
to connect to PSAPs. While it would be possible to enhance the interim
(pre-Next Gen) text-to-911 service to support this, doing so would
require significant investment by multiple entities by text service
providers, Internet access providers, and carriers. Such an investment
would be solely for a pre-Next Gen service that would not be needed
once true Next Gen services become available. In contrast, if
additional resources and coordination were directed at providing
widespread Next Gen service, this would allow Next Gen services to be
provided to users sooner than would otherwise be the case.

    Question 3. After hearing the testimony today, I am somewhat
worried about the ability of first responders to find 911 callers in
large, multi-story buildings. This is obviously a very serious issue.
How close are we to solving this issue--which is essentially getting
phones to send the pinpoint ``vertical'' or ``height'' coordinates to
the public safety answering points? Is there anything Congress can do
to expedite deployment?
    Answer. Qualcomm understands the concerns associated with vertical
coordinates and the desire to obtain altitude information. However it
is important to understand the limitations of the technologies, both in
the absolute sense of determining the position, but also in the context
of providing useful information in an end-to-end system. GPS systems
are the only reliable source of providing altitude everywhere outdoors,
but no such system exists indoors. While some spot solutions have been
demonstrated, they have not been proven to be commercially viable.
Moreover, ubiquitous coverage will take some time to get wide
propagation in the industry. Additional data and time are needed to
more fully research this matter, and the communications industry and
public safety community are working hard to complete this work. The
next stage of CSRIC testing will produce more data in the near future
and standard bodies (i.e., 3GPP, OMA, etc.) have started to add the
mechanisms needed to ensure a solution based on a healthy ecosystem
will be available as the technology is proven. Once a standards-based
solution is in place, all stakeholders will need to work together to
ensure the necessary in-building details are provided to PSAPs in a
timely and efficient manner. More work may also be required to match
accurate altitude estimates to a given floor inside buildings. This
effort will likely require efforts to undertake mapping of buildings.
Congress should encourage these efforts.

    Question 4. In the written testimony, there is a fairly robust
discussion of both the network-based and handset-based (GPS) technology
currently used to locate people on wireless devices who call 911--and
their accuracy rates. Are there other technologies on the horizon that
may prove even more effective in locating people calling 911?
    Answer. Per my written testimony, Qualcomm believes that leveraging
the 4G cellular networks (i.e., via standards-based OTDOA positioning
technique) is the best solution for ubiquitous high accuracy indoor
location in the horizontal domain. Also per my written testimony,
Qualcomm believes Wi-Fi will play a key augmentation role in final
solution once the database issues are addressed.

    Question 4a. If so, when should we expect to start seeing those
technologies show up in consumer devices?
    Answer. The exact dates for the commercial roll out of OTDOA are
determined by the wireless carriers, but I can say that they are
actively working to deploy the technology in their networks.
                                 ______

   Response to Written Questions Submitted by Hon. Barbara Boxer to
                   Telford E. Forgety III (``Trey'')
    Question 1. There is some disagreement about what factors
contributed to the results of the CalNENA survey released in March,
2013 that showed that many wireless 911 calls lacked sufficient Phase
II information. Considering that more than 110,000 CA residents
currently elect to receive wireless service only, these numbers are
especially disturbing when you consider that these economically
disadvantaged Californians have sometimes as little as a 1 in 5 chance
in an urban environment of emergency services being able to find them.
Do you agree with CalNENA's assessment that this was primarily the
fault of the different technologies carriers rely on to provide Phase
II information rather than the emergency call centers' rebidding
practices?
    Answer. The CalNENA filing urges FCC action on the basis of two
apparent data points: First, that the fraction of wireless E9-1-1 calls
for which Phase II latitude and longitude were received by the surveyed
PSAPs, on the basis of their pre-existing bid/rebid practices, falls
below the level required by the FCC's rules. Second, that that fraction
has decreased over time. The filing proposes one hypothesis that could
explain these observations: That the increasing use of A-GPS technology
may have led to a decline in Phase II information delivery due to a
simultaneous increase in the fraction of wireless 9-1-1 calls placed
from indoors or urban canyon locations that pose particular problems
for A-GPS.
    NENA does not read the CalNENA filing to reach a conclusion that
either carrier technology differences or PSAP re-bidding practices were
primarily at fault for these observations. Importantly, the type of
location technology in use by a carrier is not something PSAPs can
currently determine. Since the CalNENA filing, it has become clear that
the complexity of Phase II location determination and delivery
precludes the identification of a single causal explanation for
CalNENA's observations without integrating significant additional data,
much of which is held exclusively by carriers. Several carriers have
insisted that the low fractions of Phase II calls observed by the PSAPs
CalNENA surveyed should be attributed to the re-bidding practices that
were in place at the time the survey data were collected. For its part,
CalNENA has been responsive to these claims, and has successfully urged
the California Office of Emergency Management, the office responsible
for California's state-wide 9-1-1 program, to rescind an advisory
memorandum that previously discouraged the practice of automatically
re-bidding for Phase II data. NENA understands that CalNENA intends to
continue monitoring data made available by the State of California
following the implementation of revised re-bidding practices to
determine whether that change alone brings about an increase in the
observed fraction of calls for which Phase II information is received
at the PSAP. If the resulting data indicate that Phase II fractions
rise to the required levels under an automatic re-bidding regime, then
this would lend credence to the carriers' claims. Conversely, if the
resulting data indicate that Phase II fractions do not rise to the
required levels, then this could indicate some technical or
technological problem in the networks of the carriers which continue to
appear to be out of compliance with the FCC's rules, or it could point
to yet other problems in PSAP systems, 9-1-1 database systems, or
carrier networks. Whatever the explanation or explanations ultimately
prove to be, NENA is committed to working collaboratively with our
members, chapters, and carrier and vendor partners to ensure that 9-1-1
professionals have timely and accurate location information for each
caller.
    NENA is aware of media reports which suggest that the CalNENA data
can be explained by a shift toward increased reliance on handset-based
A-GPS (and more recently multi-constellation A-GNSS) technology. It is
true that certain older technologies can provide a faster Time To First
Fix in certain circumstances and can even provide valuable location
information for handsets located indoors. At the same time, however,
these faster and deeper-penetrating technologies also tend to produce
fixes with considerably greater uncertainties. NENA is therefore
unconvinced that any particular technological explanation should be
viewed as causal with respect to the data observed by the PSAPs CalNENA
surveyed. Carriers typically deploy several different location
determination technologies in parallel and perform actual wireless E9-
1-1 locates using whichever technology or combination of technologies
produces the least uncertain fix for a given call. NENA strongly
supports this practice, and believes that the FCC's recently-initiated
rulemaking provides a valuable opportunity for the Commission to
clarify and extend its existing rules to ensure that carriers deploy a
combination of technologies that will meet the needs of the public and
the public safety community.

    Question 2. As part of the transition from a wired and switch-
operated telephone system to a next generation Internet protocol
system, carriers and emergency call centers are being asked to update
their technical capabilities to ensure that customers can get in touch
with emergency service providers via SMS texting and data services. Do
you expect GPS-based wireless 911 location systems will be fully
compatible with Next Generation 911?
    Answer. Yes. ``Next Generation 9-1-1'' commonly refers to the set
of originating services, access networks, functional entities,
interfaces, and protocols defined by the NENA i3 Standard and other
industry standards promulgated by bodies such as the Internet
Engineering Task Force, the Alliance for Telecommunications Industry
Standards, and the 3rd Generation Partnership Program. As developed by
NENA, the i3 Standard includes robust location retrieval and storage
methodologies based on globally standardized protocols such as SIP,
HELD, PIDF-LO, and GEOPRIV. Throughout the NG9-1-1 protocol suite,
functional elements, and interfaces, the i3 Standard requires that NG9-
1-1 systems accept both validated civic addresses and geographic
coordinates (latitude, longitude, altitude, uncertainty) measured by
devices and networks.
                                 ______

    Response to Written Questions Submitted by Hon. Bill Nelson to
                   Telford E. Forgety III (``Trey'')
    Question 1. I have been a strong supporter of the move to Next
Generation (``Next Gen'') 911 services. In my NET 911 Act, we made it
the duty of IP-enabled voice providers to offer 911 services. Since
then, we have also made progress in a number of other areas--including
incentives to get states to become ``early adopters'' of Next Gen 911
systems.
    I think the promise of Next Gen 911 systems is great, especially in
terms of their resiliency during natural disasters. I am concerned,
however, about the level of coordination on the Next Gen 911 effort.
    We currently have the 911 coordination office with NTIA and NHTSA.
Last year, the FCC provided to this Committee its statutorily required
recommendations for creating a framework for the transition to Next Gen
911. In addition, I know the FCC is working on several other Next Gen
activities. Do members of the panel believe these efforts are working
well--or is further centralization or coordination of this effort
necessary?
    Answer. In short, these efforts are working well, and NENA does not
see a need for further centralization. NENA is extraordinarily pleased
with the support for Next Generation 9-1-1 deployment that has been
provided to date by both the FCC and the National 9-1-1 Office. These
agencies play fundamentally different yet equally important roles in
facilitating this crucial transition. The Commission considers and
enacts industry-facing regulations to ensure that NG9-1-1 systems can
function as designed notwithstanding the significant technological
differences between carrier networks and consumer devices, while the
Office provides valuable government-facing coordination and education
resources to facilitate the deployment of NG9-1-1 systems by state and
local governments, notwithstanding radical differences in funding and
governance models. These roles are consistent with the different
statutes authorizing the respective agencies, and have proven highly
successful over many years. Both agencies enjoy the full confidence of
the broader public safety community, and NENA believes that the
existing division of labor is appropriate and beneficial. With respect
to further coordination, however, NENA believes that the National 9-1-1
Office could play an invaluable role in speeding the deployment of NG9-
1-1 in states where no central 9-1-1 authority exists. While NENA does
not believe that the Office should have authority over local 9-1-1
agencies or PSAPs, it could, with additional resources, provide
critical support for planning, training, and education related to NG9-
1-1 deployment that many local 9-1-1 systems cannot access in the
absence of a state coordination regime. NENA would support such an
expansion.

    Question 2. I am pleased to see the progress that has been made to
date between public safety and the four nationwide wireless carriers to
provide ``text to 911'' services to consumers later this year. The
ability to text to 911 is particularly important for individuals who
are deaf or hard of hearing.
    In advance of the roll-out of ``text to 911,'' however, I want to
be sure all stakeholders are carefully considering special location
information issues associated with such a service. For example, if
someone is sending a text on a device that is using Wi-Fi rather than a
carrier network, will that text get to the correct 911 operator?
    Answer. At this time, the Carrier-NENA-APCO agreement does not
contemplate a routing requirement for non-carrier interconnected text
messaging services. However, NENA is acutely aware that the consumer
marketplace for text messaging applications has expanded to encompass
non-carrier provided text services over the past few years. Many of
these services can operate over non-CMRS networks, like residential
WiFi networks backhauled by cable or DSL. In its recent Notice of
Proposed Rulemaking on Text-to-9-1-1, the FCC described two general
means that application-based text originating service providers could
use to ensure that texts to 9-1-1 are routed properly. In one, the
device could initiate a CMRS fallback, routing a text over an available
CMRS network rather than a WiFi network. This approach would work even
if the device itself had no on-board location capabilities, or if it
did, but was unable to calculate a fix. In the second approach, a
device with on-board location capabilities that is able to calculate a
fix could advise its in-house or third-party Text Control Center of its
location regardless of whether its network connection is based on a
CMRS network or a residential or commercial WiFi network. Of course,
these approaches are far from the ideal.
    As NENA has repeatedly made clear to the FCC, all Next Generation
9-1-1 services are heavily dependent on the availability of accurate
location information supplied in standardized formats using globally-
standardized protocols such as SIP, HELD, PIDF-LO, and GEOPRIV. The
timely deployment of standards-compliant Location Information Servers
(LISs) in access networks (e.g., DSL, Cable, CMRS, etc.) is crucial to
the IP transition and NG9-1-1 deployment. In this regard, CMRS carriers
and legacy voice originating service providers enjoy certain
advantages, as existing Mobile Positioning Centers and Automatic
Location Identification databases can be reprogrammed or repurposed to
serve this function with relative ease. It may be beneficial, however,
for Congress to specifically incentivize the deployment or updating of
these servers to ensure their universal availability in access networks
as NG9-1-1 is deployed by state and local governments. Congress could
do so by authorizing targeted loans for small or rural carriers who
might not otherwise be able to quickly deploy LISs, and by conditioning
expanded liability protection offered under previous 9-1-1-related Acts
on the timely deployment of such servers. NENA would support the
implementation of both measures.

    Question 3. After hearing the testimony today, I am somewhat
worried about the ability of first responders to find 911 callers in
large, multi-story buildings. This is obviously a very serious issue.
How close are we to solving this issue--which is essentially getting
phones to send the pinpoint ``vertical'' or ``height'' coordinates to
the public safety answering points? Is there anything Congress can do
to expedite deployment?
    Answer. Multiple effective solutions to this problem exist and are
available on a competitive basis in today's market.
    Already-deployed A-GPS and A-GNSS chipsets are capable of
calculating an altitude estimate as part of a regular fix. These fixes
suffer from a relatively large uncertainty, however, if network-based
assistance data is unavailable or does not include certain data that
many handset GNSS chips cannot receive from augmentation beacons or
satellites. In the best-case scenario, already-deployed A-GNSS chipsets
can probably achieve <plus-minus>10m uncertainty in altitude. This
represents 2-3 floors in typical construction which, though greater
than the public safety community might want, is still a significant
improvement over the complete lack of vertical data available today.
Fortunately, there are other technologies already on offer than can
provide lower uncertainties.
    Several smartphone devices are already on the market with built-in
barometric pressure sensors. By themselves, these sensors can provide
valuable in-building height information, even without local calibration
references: A typical smartphone pressure sensor can detect a change in
pressure as small as 1 Pa, more than enough to detect the 12Pa/m
change in pressure due to increasing altitude in the near-surface
atmosphere. Of course, these measurements will be subject to systemic
uncertainties, as the reference pressure at mean sea level varies
significantly due to geography, weather, time of day, temperature, and
other factors. These challenges can easily be overcome by responders,
however, by deploying cheap, commercially-available barometric
altimeters (available in many wristwatches, GPS units, and, again,
smartphones). At the same location, these devices will be subject to
the same systemic uncertainties, meaning that responders can simply
``go up til the numbers match.''
    With the addition of wide-area sea-level reference data supplied by
the network (e.g., altimetry measurements already made at thousands of
local airports) or hyper-local reference data supplied by CMRS networks
or terrestrial beacon networks, the systemic uncertainty limitations of
barometric altimeters can be dramatically reduced, for total
uncertainties on the order of 3-5m, or one standard story. One beacon-
system operator, NextNav, has already licensed this technology to
Broadcom, one of the largest A-GNSS chipset vendors in the mobile
market. As with other approaches, this method can be hybridized for
even greater improvements in accuracy. For example, barometric readings
can be combined with A-GNSS and beacon ranging measurements to further
reduce vertical uncertainty.
    Beyond the measurement technology, interfaces and database
processes are already available in both carrier networks and already-
deployed E9-1-1 systems. For most PSAPs, vertical location data could
be accepted in the very short term by making a change request with a
PSAP's existing database management service vendor, and possibly also
its computer-aided dispatching vendor.
    To facilitate the integration of this technology into PSAP systems
in financially disadvantaged areas, Congress could change the priority
of $115 million in previously-authorized and appropriated funding
available under the Middle Class Tax Relief and Job Creation Act of
2012. Currently, that funding is placed $25.635 billion down the
statutory waterfall applicable to proceeds from the voluntary incentive
auctions required by that Act. Without spending one new dollar,
Congress could place 9-1-1 on an equal footing with public safety radio
programs like FirstNet, FirstNet's state and local implementation grant
fund, and the NIST Public Safety Communications Research project, all
of which are funded at the top of the waterfall. NENA urges the
Committee to consider this change.

    Question 4. In the written testimony, there is a fairly robust
discussion of both the network-based and handset-based (GPS) technology
currently used to locate people on wireless devices who call 911--and
their accuracy rates. Are there other technologies on the horizon that
may prove even more effective in locating people calling 911? If so,
when should we expect to start seeing those technologies show up in
consumer devices?
    Answer. Yes. Four technologies show particular promise: Multi-
constellation A-GNSS chipsets, Observed Time-Difference of Arrival
(OTDOA) being deployed in LTE networks, terrestrial M-LMS beacon
networks, and civic-address aware network/beacon systems. Additionally,
hybrids of each of these technologies with existing and already-
deployed positioning techniques can also yield improvements in several
aspects of positioning performance.
    Multi-constellation A-GNSS chipsets will allow devices to integrate
ranging measurements from multiple satellite systems. Already, devices
such as Apple's iPhone can utilize signals from both the U.S. NAVSTAR
(or ``GPS'') system and the Russian Federation's GLONASS system. In the
future, signals from the European GALILEO system and the Chinese Beidou
system will also become available. These signals, along with new multi-
frequency signals from the GPS constellation, will greatly increase the
probability that an A-GNSS fix is available, the geometric quality of
all fixes when additional satellite vehicles are in view, and the
ability of multi-band receivers to compensate for certain atmospheric
sources of positioning error. Chips suitable for use in handheld
devices are already available with multi-band and multi-constellation
capabilities, and are expected to be integrated into smartphone
platforms as additional signal sources become available. Consumer
availability of these features is likely within the 2-4 year timeframe,
but signal availability is subject to government priorities and funding
cycles in the U.S., the Russian Federation, the European Union, and the
People's Republic of China.
    OTDOA uses handset measurements of the differences between
precisely-timed signals emitted by pairs of transmitters in a carrier's
LTE network to calculate relative lines of position on which a handset
must lie. With two or more pairs of transmitters (i.e., at least three
transmitters, total) this method can generate position fixes. This
method is highly dependent on network geometry, however, and can be
less effective where tower placement yields acute crossing angles for
measured lines of position, such as in rural areas where towers are
often placed along highways. As noted above, however, hybridization is
possible, and OTDOA can be a very useful addition to a positioning
suite, particularly where adding a high-power source such as a
carrier's network signals allows for more robust indoor penetration.
Hybrid OTDOA/A-GNSS fixes are expected to be significantly better than
current-generation single-mode fixes, both in terms of yield and
accuracy. This technology is rolling-out today, but its implementation
will remain dependent on carriers' transition to Voice-over-LTE or
VoLTE, a process which is proceeding slowly at present. Consumer
availability of these features is likely within a 1-3 year timeframe.
    Terrestrial Multilateration-Location Monitoring Service networks,
or M-LMS systems, replicate the functionality (and often signal
characteristics) of GNSS constellations using high-power beacons
mounted on tall buildings, cell towers, and other tall structures.
These beacons broadcast signals that can be used by handsets and
networks to calculate extremely accurate location fixes, assuming a
sufficient density and appropriate geometry of beacons. In the U.S., M-
LMS services have licensed secondary spectrum rights in the 902-928 ISM
band, and there are currently at least 6 licensees holding some
combination of licenses in 176 market areas. One licensee, NextNav, has
already begun deploying an M-LMS network in major population centers.
M-LMS technology currently shows significant promise for providing
highly-accurate indoor fixes as a stand-alone technology, and even
greater promise as one component of a multi-technology hybrid location
solution. Additionally, M-LMS systems also show the greatest promise
for providing highly-localized barometric altimetry corrections to
improve vertical-axis positioning information available to responders.
Consumer availability of M-LMS capabilities is likely within a 3-5 year
timeframe.
    Civic-address awareness is a property of newer cellular network
systems that rely on extremely small cells or ``pico-cells,'' and of
some WiFi-or Bluetooth-based systems. For small cells, this technology
replaces the current latitude/longitude/uncertainty regime with a more
traditional (and more dispatchable) civic address regime by pre-
associating a particular small cell with a particular civic address.
For example, a carrier, business, or consumer, can install a small cell
to improve cellular coverage in difficult environments like basements,
dense office buildings, or stadiums. At the time of installation, the
carrier or consumer configures the device with the civic address (e.g.,
123 Main Street) of the installation location, typically through a web
interface (at least in the consumer/small business context). That
address can then be entered in the local Automatic Location
Identification database by the serving carrier, and sent in place of
(or alongside) Phase II latitude/longitude/uncertainty data when a 9-1-
1 call is placed from a device attached to the small cell. This allows
9-1-1 professionals to rely directly on the dispatchable address,
rather than first converting from lat/long coordinates to an address
and verifying the address verbally with the caller, saving precious
seconds of response time. In a slightly different context, specially-
provisioned location-aware WiFi or Bluetooth beacons could allow
devices to signal the network when a consumer makes a 9-1-1 call from a
known address such as a person's home, place of work, or a business
commonly frequented by the public. This mode of operation would require
a small conceptual adjustment to the FCC's rules, but would provide
certain attractive benefits to the public safety community, by reducing
our reliance on often uncertain positioning measurements when
immediately-dispatchable address information is available or can be
determined based on reasonable inferences. Small cells with this
capability are already available in the market, though there is some
concern that public safety personnel may not yet be aware that the
address information they generate is reliable. Likewise, beacon
technology is already available from Apple and its partners, and will
likely be available for other platforms soon. Consumer availability of
this capability is, however, less certain, with likely timeframes
ranging from 1-4 years.
                                 ______

   Response to Written Questions Submitted by Hon. Amy Klobuchar to
                   Telford E. Forgety III (``Trey'')
    Question 1. For Mr. Forgety--The wireless industry has suggested
that the solution to this problem is for 911 call centers to request
updated location information from the providers or ``rebid'' the 911
calls in order to get that information. Can rebidding alone completely
solve the problem of untimely or inaccurate location information being
delivered to the 911 call centers?
    Answer. The determination of subscriber location and its
transmission to PSAPs is a complex undertaking involving handset
vendors, network technology providers, wireless carriers, database
management service providers, local exchange carriers, 9-1-1 system
service providers, call-taking equipment makers, and computer aided
dispatching software developers. Because the available data could be
explained by a number of possible causes, NENA cannot draw a clear
conclusion as to whether rebidding alone can increase the fraction of
calls for which PSAPs are able to retrieve Phase II location data to
the required levels. Anecdotally, NENA has heard from several PSAPs in
California and elsewhere that improved re-bidding practices implemented
after the CalNENA filing have increased the fraction of calls for which
Phase II data was received. NENA has not, however, heard definitively
whether the reported increases showed all carriers to be in compliance
with the FCC's location accuracy requirements. For their parts, the
major carriers continue to insist that they more than meet the required
performance standards with their existing technologies and networks.
Even if the new data shows continuing problems, it remains possible
that other causes could be found, either in carrier networks or 9-1-1
systems. NENA intends to closely monitor available data from states and
localities to ensure that neither carrier network performance nor other
factors adversely impact the ability of our members and other 9-1-1
professionals to quickly and accurately locate callers.

    Question 1a. How long does a rebid take for a Public Safety Access
Point (PSAP)?
    Answer. The time required for a re-bid, and its result, depends
heavily on how long it is initiated after a caller sends the 9-1-1
call, and whether any prior re-bids have been placed. For a first re-
bid initiated more than 30 seconds after a call is placed, the response
may be received almost instantaneously. In some cases, particularly
where a re-bid is initiated early in the call, however, a re-bid may
not result in the retrieval of updated location information (e.g., a
Phase II fix, where only Phase I was available at the time the call was
connected). NENA is working aggressively to educate and re-educate PSAP
personnel on best practices for wireless E9-1-1 call handling to ensure
that operational practices are well aligned with the real-world time
parameters of wireless network location systems. In addition, NENA is
conducting an on-going series of conversations with major wireless
providers to ensure that the public safety community is kept abreast of
changes and improvements to their networks which could motivate updates
to those best practices.

    Question 1b. What proportion of 911 calls will not be located
accurately by rebidding?
    Answer. NENA cannot say with any certainty what proportion of 9-1-1
calls would be located accurately if automatic rebidding were
instituted in all PSAPs. Currently available data from California and
other states or localities that have and have not implemented automatic
rebidding is neither consistent nor sufficient in scope to draw a
single conclusion. However, NENA is aware the California and other
states and localities that have implemented data aggregation and
analytics programs continue to collect large amounts of data on 9-1-1
system performance, including the relative fractions of calls for which
Phase I and Phase II data are retrieved. As more data become available
from PSAPs that have implemented automatic re-bidding, NENA will
continue to review them, and to bring them to the attention of relevant
parties such as carriers, equipment vendors, and, if necessary, the
FCC, should the data indicate conclusively that carriers are not
meeting their location performance obligations.

    Question 1c. Would PSAPs need to upgrade their technologies in
order to receive vertical as well as horizontal spatial location?
    Answer. Standardized interfaces and database processes are already
available in both carrier networks and already-deployed E9-1-1 systems
to support vertical location information. For most PSAPs, vertical
location data could be accepted in the very short term by making a
change request with a PSAP's existing database management service
vendor, and possibly also its computer-aided dispatching vendor.
    To facilitate the integration of this technology into PSAP systems
in financially disadvantaged areas, Congress could change the priority
of $115 million in previously-authorized and appropriated funding
available under the Middle Class Tax Relief and Job Creation Act of
2012. Currently, that funding is placed $25.635 billion down the
statutory waterfall applicable to proceeds from the voluntary incentive
auctions required by that Act. Without spending one new dollar,
Congress could place 9-1-1 on an equal footing with public safety radio
programs like FirstNet, FirstNet's state and local implementation grant
fund, and the NIST Public Safety Communications Research project, all
of which are funded at the top of the waterfall. Additionally, Congress
could expand already-available grant and loan programs of the Rural
Utilities Service. NENA urges the Congress to consider these changes.

                                  <all>
</pre></body></html>
